39150                  Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

will be made on the basis of satisfactory   5600 Fishers Lane, Room 9A–39,              in its effort to engage the private health
progress and the availability of funds.     Rockville, Maryland 20857. Telephone        care community in addressing and
   HRSA is limiting competition to the      number (301) 443–6364 and the FAX:          fighting fraud and abuse. In the last
three regional areas because during the     (301) 443–9887.                             several years, the OIG has developed
previously announced competitive              Dated: July 14, 1999.                     and issued compliance program
cycle, applications submitted for the       Claude Earl Fox,                            guidance directed at the following
three regional areas did not successfully                                               segments of the health care industry:
                                            Administrator.
compete for funds. It is HRSA’s intent                                                     • Clinical Laboratories (62 FR 9435;
                                            [FR Doc. 99–18583 Filed 7–20–99; 8:45 am]
to fund AETC Programs in all regions of                                                 March 3, 1997, as amended in 63 FR
                                            BILLING CODE 4160–15–M
the United States. This limited                                                         45076; August 24, 1998),
competition will focus on supporting a                                                     • Hospitals (63 FR 8987; February 23,
regional AETC Program in each of the                                                    1998),
                                            DEPARTMENT OF HEALTH AND
three regions to provide state-of-the-art                                                  • Home Health Agencies (63 FR
                                            HUMAN SERVICES
treatment education, training,                                                          42410; August 7, 1998),
consultation, and support to health care    Office of Inspector General                    • Third-Party Medical Billing
professionals treating HIV seropositive                                                 Companies (63 FR 70138; December 18,
patients for the Health Resources and       Draft OIG Compliance Program                1998), and
Services Administration’s AETC              Guidance for Hospices                          • Durable Medical Equipment,
Programs during the period of support.                                                  Prosthetics, Orthotics and Supply
                                            AGENCY: Office of Inspector General         Industry (64 FR 36368; July 6, 1999).
DATES: Applications for these
                                            (OIG), HHS.                                    Copies of these compliance program
announced grants must be received in
                                            ACTION: Notice and comment period.          guidances can also be found on the OIG
the Grants HRSA Application Center by
the close of business September 1, 1999                                                 web site at http://www.os.dhhs.gov/oig.
                                            SUMMARY:    This Federal Register notice
to be considered for competition.           seeks the comments of interested parties    Developing Draft Compliance Program
Applications will meet the deadline if      on draft compliance guidance                Guidance for the Hospice Industry
they are either (1) received on or before   developed by the Office of Inspector           On January 13, 1999, the OIG
the deadline date or (2) postmarked on      General (OIG) for the hospice industry.     published a solicitation notice seeking
or before the deadline date, and            Through this notice, the OIG is setting     information and recommendations for
received in time for submission to the      forth its general views on the value and    developing formal guidance for the
objective review panel. A legibly dated     fundamental principles of hospice           hospice industry (64 FR 2228). In
receipt from a commercial carrier of        compliance programs, and the specific       response to that solicitation notice, the
U.S. Postal Service will be accepted as     elements that the hospice industry
                                                                                        OIG received 11 comments from various
proof of timely mailing. Applications       should consider when developing and
                                                                                        outside sources. In developing this
received after the deadline will be         implementing an effective compliance
                                                                                        notice for formal public comment, we
returned to the applicant.                  program.
                                                                                        have considered those comments, as
ADDRESSES: All applications should be       DATES: To assure consideration,             well as previous OIG publications, such
mailed or delivered to: Grants              comments must be delivered to the           as other compliance program guidances
Management Officer, HRSA Grants             address provided below by no later than     and Special Fraud Alerts. We have also
Application Center, Parklawn Building,      5 p.m. on August 20, 1999.                  taken into account past and recent fraud
5600 Fishers Lane, Room 4–91,               ADDRESSES: Please mail or deliver           investigations conducted by the OIG’s
Rockville, Maryland 20857. Grant            written comments to the following           Office of Investigations and the
applications sent to any address other      address: Office of Inspector General,       Department of Justice, and have
than that above are subject to being        Department of Health and Human              consulted with the Health Care
returned. Federal Register notices and      Services, Attention: OIG–6P–CPG, Room       Financing Administration.
application guidance for the HIV/AIDS       5246, Cohen Building, 330                      This draft guidance for the hospice
Bureau program are available on the         Independence Avenue, SW,                    industry contains seven elements that
World Wide Web via the Internet. The        Washington, DC 20201.                       the OIG has determined are
web site for the HIV/AIDS Bureau is:          We do not accept comments by              fundamental to an effective compliance
http://www.hrsa.gov/hab/. Federal grant     facsimile (FAX) transmission. In            program:
application kits are available at the       commenting, please refer to file code          • Implementing written policies;
following Internet address: http://         OIG–6P–CPG. Comments received                  • Designating a compliance officer
forms.psc.gov/phsforms.htm. For those       timely will be available for public         and compliance committee;
applicants who are unable to access         inspection as they are received,               • Conducting effective training and
application materials electronically, a     generally beginning approximately 2         education;
hard copy of the official grant             weeks after publication of a document,         • Developing effective lines of
application kit (PHS Form 6025–1) must      in Room 5541 of the Office of Inspector     communication;
be obtained from the HRSA Grants            General at 330 Independence Avenue,            • Conducting internal monitoring and
Application Center. The Center may be       SW, Washington, DC 20201 on Monday          auditing;
contacted by (telephone, 1–888–300–         through Friday of each week from 8:00          • Enforcing standards through well­
4772) FAX: 301–309–0579, or 3 e-mail,       a.m. to 4:30 p.m.                           publicized disciplinary guidelines; and
HRSA.GAC@ix.netcom.com.                     FOR FURTHER INFORMATION CONTACT:               • Responding promptly to detected
FOR FURTHER INFORMATION CONTACT:            Michael Shaw, Office of Counsel to the      offenses and developing corrective
Additional Information may be obtained      Inspector General, (202) 619–2078.          action.
from Mrs. Juanita Koziol, Deputy            SUPPLEMENTARY INFORMATION:                     These elements are contained in the
Branch Director, HIV Education Branch,                                                  other guidance issued by the OIG,
Division of Training and Technical          Background                                  indicated above. As with the previously­
Assistance, HIV/AIDS Bureau, Health           The creation of compliance program        issued guidances, this draft compliance
Resources and Services Administration,      guidance is a major initiative of the OIG   program guidance represents the OIG’s
                              Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                           39151

suggestions on how the hospice                              Within this document, the OIG first       compliance. Indeed, many hospices
industry can best establish internal                     provides its general views on the value      have adopted mission statements
controls and prevent fraudulent                          and fundamental principles of hospice        articulating their commitment to high
activities. The contents of this guidance                compliance programs, and then                ethical standards. A formal compliance
should not be viewed as mandatory or                     provides the specific elements that each     program, as an additional element in
as an exclusive discussion of the                        hospice should consider when                 this process, offers a hospice a further
advisable elements of a compliance                       developing and implementing an               concrete method that may improve the
program; the guidance is intended to                     effective compliance program. While          appropriateness and quality of care and
present voluntary guidance to the                        this document presents basic procedural      reduce waste. Compliance programs
industry and not represent binding                       and structural guidance for designing a      also provide a central coordinating
standards for hospices.                                  compliance program, it is not in itself a    mechanism for furnishing and
                                                         compliance program. Rather, it is a set      disseminating information and guidance
Public Input and Comment in                              of guidelines to be considered by a          on applicable Federal and State statutes,
Developing Final Guidance                                hospice interested in implementing a         regulations, and other requirements.
  In an effort to ensure that all parties                compliance program.                            Implementing an effective compliance
have an opportunity to provide input                        The OIG recognizes the size­              program requires a substantial
into the OIG’s guidance, we are                          differential that exists between             commitment of time, energy, and
publishing this guidance in draft form.                  operations of the different hospices and     resources by senior management and the
We welcome any comments from                             organizations that compose the hospice       hospice’s governing body.3 Superficial
interested parties regarding this                        industry. Appropriately, this guidance       programs that simply purport to comply
guidance. We will consider all                           is pertinent for all hospices, whether       with the elements discussed and
comments that are received within the                    for-profit or non-profit, hospital-based     described in this guidance or programs
above-cited time frame, incorporate any                  or free-standing, community-based or         that are hastily constructed and
specific recommendations as                              volunteer-based, large or small, urban or    implemented without appropriate
                                                         rural. The applicability of the              ongoing monitoring will likely be
appropriate, and prepare a final version
                                                         recommendations and guidelines               ineffective and could expose the
of the guidance thereafter for
                                                         provided in this document depends on         hospice to greater liability than no
publication in the Federal Register.
                                                         the circumstances of each particular         program at all. While it may require
Draft Compliance Program Guidance                        hospice. However, regardless of a            significant additional resources or
for the Hospice Industry (July 1999)                     hospice’s size and structure, the OIG        reallocation of existing resources to
                                                         believes that every hospice can and          implement an effective compliance
I. Introduction
                                                         should strive to accomplish the              program, the OIG believes that the long
   The Office of Inspector General (OIG)                 objectives and principles underlying all     term benefits of implementing the
of the Department of Health and Human                    of the compliance policies and               program outweigh the costs.4
Services (HHS) continues to promote                      procedures recommended within this
                                                                                                      A. Benefits of a Compliance Program
voluntarily developed and implemented                    guidance.
compliance programs for the health care                     Fundamentally, compliance efforts            The OIG believes an effective
industry. The following compliance                       are designed to establish a culture          compliance program provides a
program guidance is intended to assist                   within a hospice that promotes               mechanism that brings the public and
hospices 1 and their agents and                          prevention, detection, and resolution of     private sectors together to reach mutual
subproviders (referred to collectively in                instances of conduct that do not             goals of reducing fraud and abuse,
                                                         conform to Federal and State law, and        strengthening operational quality,
this document as ‘‘hospices’’) develop
                                                         Federal, State, and private payor health     improving the quality of health care
effective internal controls that promote
                                                         care program requirements, as well as        services, and reducing the cost of health
adherence to applicable Federal and
                                                         the hospice’s business policies. In          care. Attaining these goals provides
State law, and the program requirements
                                                         practice, the compliance program             positive results to hospices, the
of Federal, State, and private health
                                                         should effectively articulate and            Government, and individual citizens
plans. The adoption and
                                                         demonstrate the organization’s               alike. In addition to fulfilling its legal
implementation of voluntary
                                                         commitment to ethical conduct.               duty to ensure that it is not submitting
compliance programs significantly
                                                         Compliance programs guide a hospice’s        false or inaccurate claims to
advance the prevention of fraud, abuse,
                                                         governing body (e.g., board of directors     Government and private payors, a
and waste in these health care plans
                                                         or trustees), chief executive officer        hospice may gain numerous additional
while at the same time further the                                                                    benefits by voluntarily implementing an
                                                         (CEO), managers, physicians, clinicians,
fundamental mission of all hospices,                                                                  effective compliance program. These
                                                         billing personnel, and other employees
which is to provide palliative care 2 to                                                              benefits may include the ability to:
                                                         in the efficient management and
patients.
                                                         operation of a hospice. Eventually, a
  1 The
                                                         compliance program should become               3 Recent case law suggests that the failure of a
          term ‘‘hospice’’ is applied in this document                                                corporate director to attempt in good faith to
as the term ‘‘hospice program’’ is defined in 42
                                                         part of the fabric of routine hospice        institute a compliance program in certain situations
U.S.C. 1395x(dd).                                        operations.                                  may be a breach of a director’s fiduciary obligation.
   2 Palliative care is an intensive program of care        It is incumbent upon a hospice’s          See, e.g., In re Caremark International Inc.
that focuses on the relief of pain and suffering         corporate officers and managers to           Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.
associated with a terminal illness. Through this         provide ethical leadership to the            1996).
emphasis on palliative rather than curative services,                                                   4 The conclusion of a recent report by the United

individuals have a choice whenever conventional
                                                         organization and to assure that adequate     States General Accounting Office (GAO) to Congress
approaches for medical treatment may no longer be        systems are in place to facilitate ethical   stated that ‘‘despite the investment of time and
appropriate. Hospice addresses the needs of              and legal conduct. Employees,                resources that compliance programs entail, many
terminally ill individuals by including the patient      managers, and the Government will            hosptials believe the benefits of these programs
and family, specially trained volunteers, caregivers                                                  * * * outweigh their costs * * * and providers
from the community, and representatives from
                                                         focus on the words and actions of a          themselves believe that compliance programs can
medicine, nursing, social work, and spiritual            hospice’s leadership as a measure of the     reduce improper Medicare payments.’’ See GAO
counseling in the caregiving team.                       organization’s commitment to                 report GAO/HEHS–99–59 (April 1999).
39152                         Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

   • Formulate effective controls to                     compliance program, significantly                   Investigations and the Department of
assure compliance with Federal and                       reduces the risk of unlawful or improper            Justice. As appropriate, this guidance
State statutes, rules, and regulations,                  conduct.                                            may be modified and expanded as more
and Federal, State and private payor                                                                         information and knowledge is obtained
                                                         B. Application of Compliance Program
health care program requirements, and                                                                        by the OIG, and as changes in the law,
                                                         Guidance
internal guidelines;                                                                                         rules, policies, and procedures of the
   • Concretely demonstrate to                              Given the diversity within the                   Federal, State, and private health plans
employees and the community at large                     industry, there is no single ‘‘best’’               occur.
the hospice’s strong commitment to                       hospice compliance program. The OIG                   The OIG recognizes that the
honest and responsible provider and                      understands the variances and                       development and implementation of
corporate conduct;                                       complexities within the hospice                     compliance programs in hospices often
   • Identify and prevent illegal and                    industry and is sensitive to the                    raise sensitive and complex legal and
unethical conduct;                                       differences among large national and                managerial issues. 7 However, the OIG
   • Improve internal communication;                     regional multi-hospice organizations,               wishes to offer what it believes is
   • More quickly and accurately react                   small independent hospices, and other               critical guidance for providers who are
to employees’ operational compliance                     types of hospice organizations and                  sincerely attempting to comply with the
concerns and target resources to address                 systems. However, elements of this                  relevant health care statutes and
those concerns;                                          guidance can be used by all hospices,               regulations.
   • Improve the quality, efficiency, and                regardless of size, location, or corporate          II. Compliance Program Elements
consistency of patient care;                             structure, to establish an effective
   • Create a centralized source for                     compliance program. Similarly, a                       The elements proposed by these
distributing information on health care                  hospital or corporation that owns a                 guidelines are similar to those of other
statutes, regulations, and other program                 hospice or provides hospice services                compliance program guidances 8 and the
directives regarding fraud, waste, and                   may incorporate these elements into its             OIG’s corporate integrity agreements. 9
abuse, and related issues;                               system-wide compliance or managerial                The elements represent a guide that can
   • Formulate a methodology that                        structure. We recognize that some                   be tailored to fit the needs and financial
encourages employees to report                           hospices may not be able to adopt                   realities of a particular hospice. The OIG
potential problems;                                      certain elements to the same                        is cognizant that, with regard to
   • Develop procedures that allow the                   comprehensive degree that others with               compliance programs, one model is not
prompt, thorough investigation of                        more extensive resources may achieve.               suitable to every hospice.
alleged misconduct by corporate                                                                                 The OIG believes that every effective
                                                         This guidance represents the OIG’s
officers, managers, employees,                                                                               compliance program must begin with a
                                                         suggestions on how a hospice can best
independent contractors, consultants,                                                                        formal commitment 10 by the hospice’s
                                                         establish internal controls and
volunteers, physicians, nurses, and                                                                          governing body to include all of the
                                                         monitoring to correct and prevent
other health care professionals;                                                                             applicable elements listed below. These
                                                         fraudulent activities. By no means                  elements are based on the seven steps of
   • Initiate immediate, appropriate, and                should the contents of this guidance be
decisive corrective action; and                                                                              the Federal Sentencing Guidelines. 11
                                                         viewed as an exclusive discussion of the            Further, we believe that every hospice
   • Minimize, through early detection                   advisable elements of a compliance
and reporting, the loss to the                                                                               can implement most of our
                                                         program. On the contrary, the OIG                   recommended elements that expand
Government from false claims, and                        strongly encourages a hospice to
thereby reduce the hospice’s exposure                                                                        upon these seven steps. We recognize
                                                         develop and implement compliance                    that full implementation of all elements
to civil damages and penalties, criminal                 elements that uniquely address its own
sanctions, and administrative remedies,                  particular risk areas.                                 7 Nothing stated within this document should be
such as program exclusion. 5                                The OIG believes that input and                  substituted for, or used in lieu of, competent legal
   Overall, the OIG believes that an                     support by the individuals and                      advice from counsel.
effective compliance program is a sound                  organizations that will use the tools set              8 See 63 FR 70138 (December 18, 1998) for the

investment on the part of a hospice.                                                                         Compliance Program Guidance for Third Party
                                                         forth in this document are critical to the          Medical Billing Companies; 63 FR 42410 (August 7,
   The OIG recognizes that the                           development and success of this                     1998) for the Compliance Program Guidance for
implementation of a compliance                           compliance program guidance. In a                   Home Health Agencies; 63 FR 45076 (August 24,
program may not entirely eliminate                       continuing effort to collaborate closely            1998) for the Compliance Program Guidance for
fraud, abuse, and waste from the                                                                             Clinical Laboratories, as revised; 63 FR 8987 (1998)
                                                         with the private sector, the OIG placed             for the Compliance Program Guidance for Hospitals.
hospice system. However, a sincere                       a notice in the Federal Register                    These documents are also located on the Internet
effort by hospices to comply with                        soliciting recommendations and                      at http://www.dhhs.gov/progorg/oig.
applicable Federal and State standards,                  suggestions on what should be included                 9 Corporate integrity agreements are executed as

as well as the requirements of private                                                                       part of a civil settlement between the health care
                                                         in this Compliance Program Guidance. 6              provider and the Government to resolve a case
health care programs, through the                        Further, we took into consideration                 based on allegations of health care fraud or abuse.
establishment of an effective                            previous OIG publications, such as                  These OIG-imposed programs are in effect for a
                                                         Special Fraud Alerts, the recent findings           period of three to five years and require many of
  5 The OIG, for example, will consider the                                                                  the elements included in this compliance program
                                                         and recommendations in reports issued               guidance.
existence of an effective compliance program that
pre-dated any governmental investigation when            by OIG’s Office of Audit Services and                  10 E.g., a resolution by the board of directors,

addressing the appropriateness of administrative         Office of Evaluation and Inspections, as            owner(s) or president, where applicable, and the
sanctions. See 62 FR 67392 (December 24, 1997).          well as the experience of past and recent           allocation of adequate resources to ensure that each
The burden is on the provider to demonstrate the                                                             of the elements is addressed.
                                                         fraud investigations related to hospices
operational effectiveness of a compliance program.                                                              11 See United States Sentencing Commission

Further, the False Claims Act, 31 U.S.C. 3729–3733,      conducted by OIG’s Office of                        Guidelines, Guidelines Manual, 8A1.2, Application
provides that a person who has violated the Act, but                                                         Note 3(k). The Federal Sentencing Guidelines are
who voluntarily discloses the violation to the             6 See 64 FR 2228 (January 13, 1999), Notice for   detailed policies and practices for the Federal
Government, in certain circumstances will be             Solicitation of Information Recommendations for     criminal justice system that prescribe the
subject to not less than double, as opposed to treble,   Developing OIG Compliance Program Guidance for      appropriate sanctions for offenders convicted of
damages. See 31 U.S.C. 3729(a).                          the Hospice Industry.                               Federal crimes.
                             Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                      39153

may not be immediately feasible for all               policies, applicable statutes, regulations,               operating under the hospice’s control 16
hospices. However, as a first step, a                 or Federal health care program                            and other health care professionals (e.g.,
good faith and meaningful commitment                  requirements 13 and (ii) the employment                   hospice physicians,17 nurses, physical
on the part of the hospice                            of sanctioned and other specified                         therapists, occupational therapists,
administration, especially the governing              individuals.                                              social workers, spiritual counselors,
body and the CEO, will substantially                    (7) The development of policies that                    bereavement counselors, and
contribute to a program’s successful                  direct prompt and proper responses to                     volunteers). Standards should articulate
implementation. As the compliance                     detected offenses, including the                          the hospice’s commitment to comply
program is implemented, that                          initiation of appropriate corrective                      with all Federal, State, and private
commitment should cascade down                        action and preventative measures.                         insurer standards, with an emphasis on
through the management of the hospice                                                                           preventing fraud and abuse. They
to every employee at all levels in the                A. Written Policies and Procedures                        should explicitly state the organization’s
organization.                                           Every compliance program should                         mission, goals, and ethical requirements
   At a minimum, comprehensive                        require the development and                               of compliance and reflect a carefully
compliance programs should include                    distribution of written compliance                        crafted, clear expression of expectations
the following seven elements:                         policies, standards, and practices that                   for all hospice governing body members,
   (1) The development and distribution               identify specific areas of risk and                       officers, managers, employees,
of written standards of conduct, as well              vulnerability to the hospice. These                       physicians, clinicians, and, where
as written policies and procedures,                   policies, standards, and practices                        appropriate, volunteers, contractors and
which promote the hospice’s                           should be developed under the                             other agents. These standards should
commitment to compliance and address                  direction and supervision of, or subject                  promote integrity, support objectivity,
specific areas of potential fraud, such as            to review by, the compliance officer and                  and foster trust. Standards should not
assessment of Medicare eligibility,                   compliance committee and, at a                            only address compliance with statutes
quality assurance, and financial                      minimum, should be provided to all                        and regulations, but should also set
relationships with nursing facilities and             individuals who are affected by the                       forth broad principles that guide
other health care professionals and                   particular policy at issue, including the                 employees in conducting business
entities.                                             hospice’s agents and independent                          professionally and properly.
   (2) The designation of a compliance                                                                             The standards should be distributed
                                                      contractors.14
officer and other appropriate bodies,                                                                           to, and comprehensible by, all affected
e.g., a corporate compliance committee,               1. Standards of Conduct                                   employees (e.g., translated into other
charged with the responsibility for                                                                             languages when necessary and written
                                                        Hospices should develop standards of
operating and monitoring the                                                                                    at appropriate reading levels). Standards
                                                      conduct for all affected employees that
compliance program, and who report                                                                              should not only address compliance
                                                      include a clearly delineated
directly to the CEO and the governing                                                                           with statutes and regulations, but
                                                      commitment to compliance by the
body.12                                                                                                         should also set forth broad principles
   (3) The development and                            hospice’s senior management 15 and its
                                                      divisions, including affiliated providers                 that guide employees in conducting
implementation of regular, effective                                                                            business professionally and properly.
education and training programs for all                                                                         Further, to assist in ensuring that
                                                         13 The term ‘‘Federal health care programs’’ is
affected employees.                                                                                             employees continuously meet the
                                                      applied in this document as defined in 42 U.S.C.
   (4) The creation and maintenance of                1320a–7b(f), which includes any plan or program           expected high standards set forth in the
a process, such as a hotline or other                 that provides health benefits, whether directly,          code of conduct, any employee
reporting system, to receive complaints               through insurance, or otherwise, which is funded          handbook delineating or expanding
and ensure effective lines of                         directly, in whole or in part, by the United States
                                                      Government i.e., via programs such as Medicare,           upon these standards of conduct should
communication between the compliance                  Federal Employees’ Compensation Act, Black Lung,          be regularly updated as applicable
officer and all employees, and the                    or the Longshore and Harbor Worker’s                      statutes, regulations, and Federal health
adoption of procedures to protect the                 Compensation Act) or any State health plan (e.g.,         care program requirements are modified
anonymity of complainants and to                      Medicaid, or a program receiving funds from block
                                                      grants for social services or child health services).     and/or clarified.18
protect whistleblowers from retaliation.              Also, for the purpose of this document, the
   (5) The use of audits and/or other                 term‘‘Federal health care program requirements’’            16 E.g., attending physicians, pharmacies, durable
evaluation techniques to monitor                      refers to the statutes, regulations, rules,               medical equipment suppliers, hospitals, nursing
compliance, identify problem areas, and               requirements, directives, and instructions governing      homes, home health agencies, and supplemental
assist in the reduction of identified                 Medicare, Medicaid, and all other Federal health          staffing entities.
                                                      care programs.                                              17 When the term ‘‘hospice physician’’ is applied
problem areas.                                           14 According to the Federal Sentencing                 in this document, it refers to the hospice’s medical
   (6) The development of appropriate                 Guidelines, an organization must have established         director or the physician member of a hospice’s
disciplinary mechanisms to enforce                    compliance standards and procedures to be                 Interdisciplinary Group. The ‘‘Interdisciplinary
standards and the development of                      followed by its employees and other agents in order       Group,’’ which is composed of at least a doctor of
                                                      to receive sentencing credit for an ‘‘effective’’         medicne or osteopathy, registered nurse, medical
policies to address (i) employees who                 compliance program. The Federal Sentencing                social worker, and pastoral or other counselor, is
have violated internal compliance                     Guidelines define ‘‘agent’’ as ‘‘any individual,          responsible for: (1) participation in the
                                                      including a director, an officer, an employee, or an      establishment of the plan of care; (2) provision of
  12 The integral functions of a compliance officer   independent contractor, authorized to act on behalf       supervision of hospice care and services; (3)
and a corporate compliance committee in               of the organization.’’ See United States Sentencing       periodic review and updating of the plan of care for
implementing an effective compliance program are      Commission Guidelines, Guidelines Manual, 8A1.2,          each individual receiving hospice care; (4)
discussed throughout this compliance program          Application Note 3.                                       establishment of policies governing the day-to-day
guidance. However, the OIG recognizes that a             15 The OIG strongly encourages high-level              provision of hospice care and services. See 42 CFR
hospice may tailor the structure of those positions   involvement by the hospice’s governing body, CEO,         418.68.
in consideration of the size and design of the        chief operating officer, general counsel, and chief         18 The OIG recognizes that not all standards,

hospice, while endeavoring to address and             financial officer, as well as other medical or clinical   policies, and procedures need to be communicated
accomplish all of the underlying objectives of a      personnel, as appropriate, in the development of          to all employees. However, the OIG believes that
compliance officer and a corporate compliance         standards of conduct. Such involvement should             the bulk of the standards that relate to complying
committee. See section II.B. and accompanying         help communicate a strong and explicit statement          with fraud and abuse laws and other ethical areas
notes.                                                of compliance goals and standards.                                                                   Continued
39154                         Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

  When they first begin working for the                     • Uninformed consent to elect the                          • Under-utilization; 26
hospice, and each time new standards of                   Medicare Hospice Benefit; 22                                 • Falsified medical records or plans
conduct are issued, employees should                        • Discriminatory admission; 23                           of care; 27
be asked to sign a statement certifying                     • Admitting patients to hospice care                       • Untimely and/or forged physician
that they have received, read, and                        who are not terminally ill; 24                             certifications on plans of care;
understood the standards of conduct.                                                                                   • Inadequate or incomplete services
An employee’s certification should be                       • Arrangement with another health
                                                                                                                     rendered by the Interdisciplinary
retained by the hospice in the                            care provider who a hospice knows is
                                                                                                                     Group; 28
                                                          submitting claims for services already
employee’s personnel file, and available                                                                               • Insufficient oversight of patients
for review by the compliance officer.                     covered by the Medicare Hospice
                                                                                                                     receiving more than six consecutive
                                                          Benefit; 25
2. Risk Areas                                                                                                        months of hospice care; 29
                                                                                                                       • Hospice incentives to actual or
   The OIG believes that a hospice’s                         22 A hospice must ensure that an individual (or
                                                                                                                     potential referral sources (e.g.,
written policies and procedures should                    authorized representative) is informed about the
                                                          palliative nature of the care and services that may        physicians, nursing homes, hospitals,
take into consideration the particular                    be provided if the individual desires to elect the         patients, etc.) that may violate the anti­
statutes, rules, and program instructions                 Medicare Hospice Benefit. 42 CFR 418.62. The               kickback statute or other similar Federal
that apply to each function or                            decision to elect the Medicare Hospice Benefit has
                                                                                                                     or State statute or regulation, 30
department of the hospice.19 In contrast                  significant consequences because the patient waives
                                                          the right to receive standard Medicare benefits
to the standards of conduct, which are                    related to the terminal illness, including all                26 In other words, knowing denial of needed care
designed to be a clear and concise                        treatment for the purposes of curing the terminal          in order to keep costs low. A hospice is accountable
collection of fundamental standards, the                  illness. See 42 U.S.C. 1395d(d). A patient’s hospice       for the appropriate allocation and utilization of its
written policies should articulate                        election statement must include the following items        resources in order to provide optimal care
                                                          of information: (1) identification of the particular       consistent with the needs of a patient, family, and/
specific procedures that hospice staff                                                                               or lawful representative. When a patient is
                                                          hospice that will provide care to the individual; (2)
should follow.                                            the individual’s or representative’s                       receiving hospice care, the hospice is paid a
   Consequently, we recommend that                        acknowledgment that he or she has been given a             predetermined fee for a each day during the length
these policies and procedures be                          full understanding of hospice care; (3) the                of care, no matter how much care the hospice
coordinated with the appropriate                          individual’s or representative’s acknowledgment            actually provides. This means that a hospice may
                                                          that he or she understands that certain Medicare           have a financial incentive to reduce the number of
training and educational programs, with                   services are waived by the election; (4) the effective     services provided to each patient, because the
an emphasis on areas of special concern                   date of the election; and (5) the signature of the         hospice will get paid the same amount regardless
that have been identified by the OIG                      individual or representative. See Medicare Hospice         of the number of services provided. The OIG has
through its investigative and audit                       Manual § 210.                                              received complaints about hospices neglecting
                                                             23 Hospices should offer palliative care to all         patient needs and ignoring reasonable requests for
functions.20 Some of the special areas of                                                                            treatment, including complaints about limited
                                                          terminally ill individuals and their families who are
OIG concern include: 21                                   eligible, regardless of age, gender, nationally, race,     availability of durable medical equipment for
                                                          creed, sexual orientation, or disability.                  patients as their medical condition decreases and
should be addressed and made part of all affected            24 For a hospice patient to receive reimbursement       failure to provide continuous care for periods of
employees’ training. The hospice must decide              for hospice services under Medicare, the patient           crisis due to staff shortages. The OIG has also been
which additional educational programs should be           must be ‘‘terminally ill.’’ See 42 U.S.C. 1395d(a). An     alerted to improper utilization of services that
limited to the different levels of employees, based       individual is considered to be ‘‘terminally ill’’ if the   occurs when a hospice encourages a patient to
on job functions and areas of responsibility.             individual has a medical prognosis that the                revoke the Medicare Hospice Benefit for the
   19 A hospice can conduct focus groups composed         individual’s life expectancy is six months or less if      purpose of obtaining expensive care under the
of managers from various departments to solicit           the illness runs its normal course. 42 CFR 418.3. In       standard Medicare benefits, only to re-elect the
their concerns and ideas about compliance risks           March 1995, Operation Restore Trust (ORT), a joint         Medicare Hospice Benefit when expensive care is
that may be then addresses by the hospice’s policies      initiative, was established between the OIG, HCFA,         no longer necessary.
                                                                                                                        27 OIG investigations have revealed that certain
and procedures. Such employee participation in the        and Administration on Aging. Among its projects,
development of the hospice’s compliance program           ORT assessed the medical eligibility for hospice           hospices have falsified or ‘‘re-created’’ patient
can promote its credibility and foster employee           services in the five largest States in terms of            medical records and plans of care to exaggerate the
acceptance of the program.                                Medicare spending (New York, Florida, Illinois,            negative aspects regarding a hospice patient’s
   20 The OIG periodically issues Special Fraud           Texas, and California). Through ORT activities, it         condition to justify reimbursement. See section
Alerts setting forth activities believed to raise legal   was discovered that many beneficiaries receiving           II.A.3.b. and accompanying notes.
                                                                                                                        28 Each hospice is required to have an
and enforcement issues. For example, see OIG              Medicare hospice benefits did not have a terminal
Special Fraud Alert—‘‘Fraud and Abuse in Nursing          illness as defined by Medicare. See OIG report A–          ‘‘Interdisciplinary Group’’ of personnel. See 42
Home Arrangements with Hospices’’ (March 1998);           05–96–00023—‘‘Enhanced Controls Needed to                  U.S.C. 1395x(dd)(2)(B). See note 17. Failure of the
see also OIG Medicare Advisory Bulletin on                Assure Validity of Medicare Hospice Enrollments.’’         Interdisciplinary Group to meet its responsibilities
Hospice Benefits (November 1995). Hospice                 In addition, OIG investigators have encountered            may result in substandard care. In addition,
compliance programs should require that the legal         hospices that asked nurse employees to alter notes         inadequate review of a hospice patient may result
staff, compliance officer, or other appropriate           in patients’ records or to otherwise misrepresent          in improper reimbursement for services provided to
personnel carefully consider any and all Special          patients’ medical conditions, in order to falsify the      a patient who fails to continue to be eligible for the
Fraud Alerts issued by the OIG that relate to             existence of a terminal condition. See also section        Medicare Hospice Benefit.
hospices. Moreover, the compliance programs               II.A.3.a. and accompanying notes.                             29 Since the enactment of the Balanced Budget

should address the ramifications of failing to cease         25 When an individual makes an election to              Act of 1997, the Medicare Hospice Benefit is
and correct any conduct criticized in a Special           receive services covered by the Medicare Hospice           divided into the following benefit periods: (1)
Fraud Alert, if applicable to hospices, or to take        Benefit, that individual waives the right to receive       initial 90-day; (2) subsequent 90-day; and (3)
reasonable action to prevent such conduct from            Medicare reimbursement for any treatment related           unlimited number of 60-day benefit periods as long
reoccurring in the future. If appropriate, a hospice      to his or her terminal illness. Accordingly, a             as the patient continues to meet program eligibility
should take the steps described in section II.G.          hospice should ensure it is not involved with a            requirements. See 42 U.S.C. 1395d. At the
regarding investigations, reporting, and correction       health care provider who the hospice knows                 beginning of each subsequent 60-day benefit period,
of identified problems.                                   submits claims for the following services that are         either the attending physician or hospice physician
   21 Hospices may also want to consult the OIG’s         unallowable for reimbursement under the Medicare           must recertify that the patient is terminally ill. See
Work Plan when conducting the risk assessment.            Hospice Benefit: (1) standard Medicare benefits for        42 U.S.C. 1395f(a)(7). If the necessary oversight is
The OIG Work Plan details the various projects the        treatment of the terminal illness; (2) treatment by        not performed during the unlimited periods of care,
OIG intends to address in the applicable fiscal year.     another hospice not arranged for by the patient’s          a hospice may receive improper reimbursement for
It should be noted that the priorities in the Work        hospice; and (3) care from another provider that           services provided to a patient who fails to continue
Plan are subject to modification and revision as the      duplicates care the hospice is required to furnish.        to be eligible for the Medicare Hospice Benefit.
year progresses and it does not represent a complete      See 42 U.S.C. 1395d(d). It is expected that the               30 Examples of arrangements that may run afoul

or final list of areas of concern to the OIG. The         hospice provider will work with other providers to         of the anti-kickback statute include practices in
Work Plan is currently available on the Internet at       coordinate care and ensure appropriate billing if          which a hospice pays a fee to a physician for each
http://www.os.dhhs.gov/oig.                               these situations occur.                                    plan of care certified, and provides nursing or
                             Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                        39155

including improper arrangements with                    agreement has been finalized, if                            • Improper patient solicitation
nursing homes; 31                                       required; 34                                              activities, such as ‘‘patient charting;’’ 40
  • Overlap in the services that a                        • Billing for a higher level of services                  • Inadequate management and
nursing home provides, which results in                 than was necessary; 35
                                                          • Knowingly billing for inadequate or                   oversight of subcontracted services,
insufficient care provided by a hospice                                                                           which results in improper billing; 41
to a nursing home resident; 32                          substandard care;
  • Improper relinquishment of core                       • Inadequate justification in the                         • Sales commissions based upon
services and professional management                    medical record when a patient revokes                     length of stay in hospice; 42
responsibilities to nursing homes,                      the Medicare Hospice Benefit; 36                            • Deficient coordination of
volunteers, and privately-paid                            • Billing for hospice care provided by
                                                                                                                  volunteers; 43
professionals; 33                                       unqualified or unlicensed clinical
                                                        personnel; 37                                               • Improper indication of the location
  • Providing hospice services in a
                                                          • False dating of amendments to                         where hospice services were
nursing home before a written
                                                        medical records; 38                                       delivered; 44
                                                          • High-pressure marketing of hospice
administrative services for free or below fair market   care to ineligible beneficiaries; 39
value to physicians, nursing homes, hospitals and                                                                 Medicare entitlement under the Medicare Hospice
other potential referral sources. See 42 U.S.C.                                                                   Benefit to induce beneficiaries to elect hospice and
                                                          34 A   patient who resides in a skilled nursing
1320a–7b; 60 FR 40847 (1995). See also discussion                                                                 thereby waive aggressive treatment options that
in section II.A.4. and accompanying notes. In           facility or nursing facility may elect the Medicare       Medicare would otherwise cover. Marketing
addition, a hospice that offers an incentive to an      Hospice Benefit if: (1) the residential care is paid
                                                                                                                  statements should not create the perception that the
individual that such hospice knows or should know       for by (a) the beneficiary or private insurance, or (b)
                                                                                                                  initial terminal prognosis is of limited importance
is likely to influence the individual to use a          Medicaid (if the beneficiary is dual eligible); and (2)
                                                                                                                  and that hospice benefits may almost routinely be
particular hospice may be subject to civil monetary     the hospice and facility have a written agreement
                                                        under which the hospice takes full responsibility         provided over an indefinite time period. Marketing
penalties. See 42 U.S.C. 1320a–7a(a)(5).                                                                          materials should prominently feature the eligibility
   31 The OIG has observed instances of potential       for the professional management of the individual’s
                                                        hospice care and the facility agrees to provide room      requirements for the Medicare Hospice Benefit.
kickbacks between hospices and nursing homes to                                                                     40 Hospices should not review medical records of
unlawfully influence the referral of patients. In       and board. Hospice Medicare Manual § 204.2.
                                                           35 Billing for unnecessary services involves           nursing home patients in an attempt to recruit
general, payments by a hospice to a nursing home
                                                        knowingly seeking reimbursement for services that         patients for hospice services based on their
for ‘‘room and board’’ provided to a Medicaid
                                                        ‘‘are not reasonable and necessary for the palliation     diagnoses. For instance, see OIG report A–05–96–
hospice patient should not exceed what the nursing
                                                        or management of terminal illness.’’ See 42 U.S.C.        00023—‘‘Enhanced Controls Needed To Assure
home otherwise would have received if the patient
                                                        1395y(a)(1)(C). Because HCFA establishes different        Validity of Medicare Hospice Enrollments.’’
had not been enrolled in hospice. (If a patient
                                                        payment amounts for specific categories of covered          41 The Balanced Budget Act of 1997, Pub. L. No.
receiving Medicare hospice benefits in a nursing
home is also eligible for Medicaid, Medicaid will       hospice care, a hospice must ensure that it provides      105–33, amended the Social Security Act so that
pay the hospice at least 95 percent of the State’s      services to hospice patients that are reasonable and      hospices will no longer be required to routinely
daily nursing home rate, and the hospice is then        necessary. Otherwise, the hospice may be                  provide all physician services directly by
responsible for paying the nursing home for the         reimbursed for a higher level of services than was        employing a physician. See 42 U.S.C. 1395x(dd)(2).
patient’s room and board.) Any additional payment       necessary, e.g., a hospice that provides and bills for    Because the OIG has received reports of limited
must represent the fair market value of additional      continuous care where only routine home care is           involvement displayed by contracted physicians, as
services actually provided to that patient that are     necessary. See also section II.A.3.d. and                 opposed to hospice-employed physicians, hospices
not included in the Medicaid daily rate. See            accompanying notes.                                       should consider having oversight mechanisms in
                                                           36 Fiscal intermediaries have informed the OIG         place to ensure that hospice physicians are
Hospice Medicare Manual § 204.2. See also section
II.A.4. and accompanying notes.                         that hospices rarely offer the reasons supporting the     thoroughly reviewing re-certification
   32 There may be some overlap in the services that    revocation of a patient’s Medicare Hospice Benefit.       documentation.
the nursing homes and hospices provide, thereby         Although a hospice may discharge a patient if it            42 Through ORT activities, it was discovered that

providing one or the other the opportunity to           discovers that the patient is not terminally ill,         hospice sales staff often were paid on commission
reduce services and costs. Recent OIG reports found     hospices should not encourage a patient to revoke         based on the length of a patient’s stay in hospice.
that residents of certain nursing homes receive         the benefit merely to avoid the obligation to pay for     For example, commission amounts were
fewer services from their hospice than patients who     hospice services that have become too costly. See         determined by multiplying the total number of days
receive hospice services in their own homes. Upon       Hospice Medicare Manual § 210.                            of hospice patient care (patient days) within a sales
                                                           37 Medicare conditions of participation require
review, it was found that many nursing home                                                                       representative’s territory by a factor that reflected
hospice patients were receiving only basic nursing      that hospices and all hospice employees must be           the level of achievement of assigned sales
and aide visits that were provided by nursing home      licensed in accordance with applicable Federal,           performance objectives. Such marketing tactics are
staff as part of room and board when hospice staff      State, and local laws and regulations. 42 CFR             encouraged the recruitment of long-term patients,
were not present. Other additional treatments           418.72.                                                   many of whom the review found ineligible for the
provided by hospice staff, such as nursing and aide        38 If additions or corrections need to be made to
                                                                                                                  Medicare Hospice Benefit. The OIG recommends
visits, were often clearly within the professional      medical records, hospices should make such entries        that hospices monitor sales commissions for
skills possessed by nursing home staff. The reports     appropriately. For example, hospices might correct        potential vulnerabilities associated with improper
found that the nature of services provided by           a medical record by drawing a single line through         patient recruiting. See OIG report A–05–96–
hospice staff, while appropriate and efficacious,       the erroneous entry, writing ‘‘error’’ next to the        00023—‘‘Enhanced Controls Needed to Assure
appeared to differ little from services a nursing       entry, initialing and dating the correction, and          Validity of Medicare Hospice Enrollments.’’
home would have provided if the patient was not         writing the correct information near the entry or           43 Hospices rely heavily on volunteer support. In
enrolled in hospice. See OEI report OEI–05–95–          writing where the correct information could be
00250—‘‘Hospice Patients in Nursing Homes;’’ see        found.                                                    fact, the Medicare Hospice Benefit is the only
also OIG report A–05–96–00023—‘‘Enhanced                   39 Hospices should not utilize prohibited or
                                                                                                                  federally funded program that mandates the
Controls Needed to Assure Validity of Medicare                                                                    provision of volunteer services. Appropriately,
                                                        inappropriate conduct (e.g., offer free gifts or
Hospice Enrollments.’’ Since hospices receive a                                                                   hospices need to recognize and attend to
                                                        services to patients), designed to maximize business
fixed daily payment regardless of the number of                                                                   compliance issues associated with volunteers (i.e.,
                                                        growth and patient retention, to carry out their
services provided or the location of the patient,       initiatives and activities. Also, any marketing           screening, training, disciplining, monitoring, etc.).
                                                                                                                    44 Medicare payments for hospice services are
fewer services may result in higher profits per         information offered by hospices should be clear,
patient. See also section II.A.3.e. and accompanying    correct, non-deceptive, and fully informative.            made on a prospective basis and adjusted by an area
notes.                                                  Through ORT, it was discovered that hospice               wage index. Hospices must submit claims based on
   33 Certain of the hospice services, (i.e., ‘‘core    marketing materials had placed considerable               the geographic location at which the service is
services’’ such as nursing, medical, social, and        emphasis on the availability of hospice benefits for      furnished and not the location of the hospice.
counseling services) must be provided directly to       long term care patients, while downplaying or             Incorrect designation of the place of service for
the patient by employees of the hospice, while          ignoring the terminal illness eligibility requirement.    revenue codes 651 and 652 of the hospice claim
other non-core hospice services may be provided in      See OIG report A–05–96–00023—‘‘Enhanced                   may significantly alter reimbursement and result in
accordance with contracts with other providers.         Controls Needed To Assure Validity of Medicare            overpayment for services performed (e.g., hospice
However, the hospice must retain professional           Hospice Enrollments.’’ Hospices should not engage         office in a metropolitan area may be reimbursed
management for all contacted services. See 42 CFR       in marketing and sales strategies that offer              more than a rural home where the services were
418.80.                                                 incomplete or inadequate information about                performed).
39156                         Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

   • Failure to comply with applicable                    areas should be assessed by hospices as                  revenue code (or successor codes) used
requirements for verbal orders for                        well and incorporated into the written                   by the billing staff should accurately
hospice services; 45                                      policies and procedures and training                     describe the service that was ordered by
   • Non-response to late hospice                         elements developed as part of their                      the physician and performed by the
referrals by physicians; 46                               compliance programs.                                     hospice. The documentation necessary
   • Knowing misuse of provider                                                                                    for accurate billing should be available
                                                          3. Eligibility Requirements
certification numbers, which results in                                                                            to billing staff; and
improper billing; 47                                         Of the risk areas identified above,                      • Provide that the compensation for
   • Failure to adhere to hospice                         those pertaining to the Medicare                         hospice admission personnel, billing
licensing requirements and Medicare                       eligibility requirements have been the                   department personnel and billing
conditions of participation; 48 and                       frequent subject of investigations and                   consultants should not offer any
   • Knowing failure to return                            audits. With respect to the                              financial incentive to bill for hospice
overpayments made by Federal health                       reimbursement process, a hospice’s                       care regardless of whether applicable
care programs.49                                          written policies and procedures should                   eligibility criteria for reimbursement is
   A hospice’s prior history of                           reflect and reinforce current Federal                    met.
noncompliance with applicable statutes,                   health care requirements regarding the                      The written policies and procedures
regulations, and Federal health care                      eligibility for Medicare reimbursement.                  concerning proper billing should reflect
program requirements may indicate                         The policies must create a mechanism                     the current reimbursement principles
additional types of risk areas where the                  for the billing or reimbursement staff to                set forth in applicable regulations and
hospice may be vulnerable and that may                    communicate effectively and accurately                   should be developed in tandem with
require policies and procedures to                        with the clinical staff. Policies and                    private payor and organizational
prevent recurrence.50 Additional risk                     procedures should:                                       standards. Particular attention should be
                                                             • Provide for complete and timely                     paid to issues associated with patient
   45 Hospice staff must make an appropriate entry        documentation of the specific clinical                   election of the Medicare Hospice
in the patient’s medical record as soon as they           factors that qualify a patient for the                   Benefit, certification of terminal illness
receive a verbal certification of terminal illness and    Medicare Hospice Benefit; 51
file written certifications in the medical record. See                                                             of a patient, development and
42 CFR 418.22(d). State regulations may require that
                                                             • Delineate who has authority to                      certification of a patient’s
verbal and telephone orders from physicians should        make entries in the patient record;                      interdisciplinary plan of care, and
only be accepted by individuals authorized by State          • Emphasize that patients should be                   reasonableness and necessity of the
law to accept such orders. The OIG recommends             admitted to hospice care only when                       level of hospice care provided.52
that those authorized individuals accepting verbal        appropriate documentation supports the
and telephone orders should record, date, and sign
these orders and the physician(s) who ordered the         applicable reimbursement eligibility                     a. Terminal Illness as an Eligibility
service or treatment should countersign them no           criteria and only when such                              Requirement
later than the time period required by State              documentation is maintained,                                For a hospice patient to receive
regulations.                                              appropriately organized in a legible
   46 We have received comments expressing                                                                         reimbursement for hospice services
concern over late hospice referrals by physicians.
                                                          form, and available for audit and                        under Medicare,53 the patient must be
While the onus of a timely hospice referral may be        review. The documentation should                         ‘‘terminally ill.’’ 54 Hospices should
on a physician, a hospice should not allow                record the activity leading to the record                create oversight mechanisms to ensure
untimely referrals to go unrecognized with                entry and the identity of the individual
inadequate follow-up to the physicians. When
                                                                                                                   that the terminal illness of a Medicare
hospice referrals are late, terminally ill patients may
                                                          providing the service. Documentation                     beneficiary is verified 55 and the specific
be unnecessarily denied access to the Medicare            should be consistent and any
Hospice Benefit, hospices may have to admit a             discrepancies discussed and reconciled.                     52 The OIG has undertaken numerous audits,
patient at the costliest stage of terminal illness, and   The hospice should consult with its                      investigations, inspections, and national
quality of care may be affected because of patients                                                                enforcement initiatives aimed at reducing potential
being too far along to receive the optimum benefits
                                                          physicians, clinical staff, and/or
                                                                                                                   and actual fraud, abuse, and waste. For example,
of hospice care. Hospices need to work closely with       governing body to establish other                        see OIG report A–05–96–00023—‘‘Enhanced
physicians to educate and remind them as to the           appropriate documentation guidelines;                    Controls Needed to Assure Validity of Medicare
sensitivities and risks associated with untimely             • Indicate that the diagnosis and                     Hospice Enrollments;’’ see also OIG Special Fraud
referrals.                                                                                                         Alert—‘‘Fraud and Abuse in Nursing Home
   47 E.g., transfer of a patient from one hospice to
                                                          procedure codes for hospice services
                                                                                                                   Arrangements with Hospices’’ (March 1998); OIG
another hospice owned by the same company to              reported on the reimbursement claim                      Medicare Advisory Bulletin on Hospice Benefits
circumvent applicable reimbursement caps.                 should be based on the patient’s clinical                (November 1995).
   48 See 42 CFR 418.50–418.100 for the Medicare          condition as reflected in the medical                       53 42 U.S.C. 1395d(a) authorizes the

conditions of participation that apply to hospices.       record and other documentation, and                      reimbursement of hospice care.
   49 An overpayment is the amount of money a                                                                         54 An individual is considered to be ‘‘terminally
                                                          should comply with all applicable
hospice may have received in excess of the amount                                                                  ill’’ if the individual has a medical prognosis that
due and payable under a health care program.              official coding rules and guidelines.                    the individual’s life expectancy is six months or
Examples of overpayments include, but are not             Any Health Care Financing                                less if the illness runs its normal course. 42 CFR
limited to, instances where a hospice is: (1) paid        Administration Common Procedure                          418.3. However, the fact that a hospice patient lives
twice for the same service either by Medicare or by       Coding System (HCPCS), International                     beyond this six month period, in and of itself, does
Medicare and another insurer; or (2) paid for care                                                                 not constitute grounds for a determination that the
rendered to patients who are not terminally ill or        Classification of Disease (ICD), or                      patient was never eligible for hospice care, or that
are otherwise ineligible for the Medicare Hospice                                                                  the services provided to the patient were not
Benefit. For instance, see Hospice Medicare Manual        is effective. See United States Sentencing               reimbursable by Medicare.
§ 307. The OIG strongly recommends that the               Commission Guidelines, Guidelines Manual, 8A1.2,            55 Medical reviews, audits, inspections, and
hospice institute procedures to detect overpayments       Application Note 3(k)(iii).                              investigations of hospices have concluded that
and to promptly remit such overpayments to the               51 Each patient’s clinical record must contain: (1)   hospices have billed Medicare for hospice services
affected payor. See 42 U.S.C. 1320a–7b(a)(3), which       the initial and subsequent assessments (including        provided to patients who are not terminally ill, with
provides criminal penalties for failure to disclose an    hospice admission history, certification, and            diagnoses including arthritis, anorexia, debility,
overpayment. See also 18 U.S.C. 669.                      recertification); (2) the plan of care; (3)              and failure to thrive. For instance, see OIG report
   50 Recurrence of misconduct similar to that which      identification data; (4) consent and authorization       OEI–04–93–00270—‘‘Medicare Hospice
an organization has previously committed casts            and election forms; (5) pertinent medical history;       Beneficiaries: Services and Eligibility.’’ Through
doubt on whether it took all reasonable steps to          and (6) complete documentation of all services and       Operation Restore Trust activities and the increased
prevent such misconduct’’ and is a significant factor     events (including evaluations, treatments, progress      program integrity actions by the Regional Home
in the assessment of whether a compliance program         notes, etc.) See 42 CFR 418.74.                          Health Intermediaries (RHHIs), it was discovered
                              Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                  39157

factors qualifying the patient as                        families, reminding them that they must             policies and procedures should require,
terminally ill are properly                              satisfy the regulatory requirements for             at a minimum, that:
documented.56 Any determinative                          terminal illness status to be eligible for             • Before the hospice bills for hospice
assessment of the terminal illness of a                  Medicare coverage. These discussions                care provided to a patient, the plan of
Medicare beneficiary should be                           can take place at the beginning of                  care must be established by the hospice
completed prior to billing Medicare for                  hospice election and during appropriate             patient’s attending physician,63 the
hospice care. Physicians must certify                    times throughout a patient’s hospice                hospice physician, and the
that the beneficiary was terminally ill at               care, e.g., at time of recertification.             Interdisciplinary Group;
the time when a patient was admitted                     Because the Medicare conditions of                     • The plan of care includes (i) An
for hospice services as well as at the                   participation require hospices to give all          assessment of the hospice patient’s
beginning of subsequent hospice benefit                  beneficiaries an informed consent form              needs and identification of services,
periods.57                                               that outlines their legal rights before             including the management of discomfort
   The hospice’s written policies and                    furnishing them with hospice care,59                and symptom relief, and (ii) the scope
procedures should require, at a                          providers can include reminders of                  and frequency of services, in detail,
minimum, that:                                           terminal illness requirements in these              needed to meet the patient’s and
   • Before a patient is admitted for                    forms.                                              family’s needs; 64
hospice services, the hospice physician                     The OIG recognizes that decisions to                • The plan of care must be reviewed
and attending physician thoroughly                       admit patients to hospices are often not            and updated, at intervals specified in
review and certify the admitting                         based on medical factors alone. Such                the plan, by the attending physician,
diagnosis and prognosis;                                 decisions are routinely influenced by               hospice physician, and the
   • A patient’s medical record contain                  non-medical factors that would                      Interdisciplinary Group; 65
complete and measurable                                  generally be reflected in the plan of                  • The hospice properly documents
documentation to support the                             care. However, it is important to make              any review or update of a hospice
certification made by the hospice                        a distinction between admitting a                   patient’s plan of care by the attending
physician or attending physician; 58                     patient to a hospice program and                    physician, the hospice physician and
   • The patient or lawful representative                certifying a patient for the Medicare               Interdisciplinary Group; and 66
                                                         Hospice Benefit. Based on an individual                • The hospice regularly reviews the
is informed of the determination of the
                                                         hospice’s admission criteria, some                  appropriateness of Interdisciplinary
patient’s life limiting condition;
                                                                                                             Group services and level of services
   • The patient or lawful representative                patients may be admitted to hospice
                                                         care prior to an estimated six months               being provided, patient admission to
is aware that the goal of hospice is
                                                         before death, as long as the hospice is             hospice, patient length of stay, delays,
directed toward relief of symptoms,
                                                         paid fair market value for its services.            and specific treatment modalities.
rather than the cure of the underlying
disease;                                                 Regardless, patients can be certified for           c. Utilization of Hospice Services
   • A patient’s medical condition and                   the Medicare Hospice Benefit only when
                                                                                                                A hospice is accountable for the
status is completely reviewed during                     it is reasonable to conclude that a
                                                         patient’s life expectancy is six months             appropriate allocation and utilization of
Interdisciplinary Group meetings; and                                                                        its resources in order to provide optimal
   • The clinical progression/status of a                or less if the illness runs its normal
                                                                                                             care consistent with patient and family
patient’s disease and medical condition                  course. In other cases, alternative modes
                                                         of reimbursement, often provided                    needs.67 Accordingly, a hospice should
are properly documented.                                                                                     monitor and evaluate its resource
   Hospices can further ensure                           through community support, should be
                                                         sought outside the Medicare Hospice                 allocation regularly to identify and
compliance with the terminal illness
requirement through discussions with                     Benefit.
                                                                                                             ordered by a physician are excessive or otherwise
Medicare beneficiaries and their                         b. Plan of Care                                     inappropriate, the hospice cannot avoid liability for
                                                                                                             filing improper claims simply because a physician
that many beneficiaries receiving Medicare hospice
                                                            A hospice should take all reasonable             has certified the need for hospice care.
benefits did not have a terminal illness. In the         steps to ensure that a written plan of                 63 For Medicare reimbursement purposes, a plan

review of hospice cases between 1992 and 1996,           care is established and maintained for              for furnishing hospice services must be certified by
patients did not demonstrate significant clinical        each individual who receives hospice                a physician who is a doctor of medicine,
symptoms of their disease nor notable functional                                                             osteopathy, or podiatric medicine. See 42 CFR
limitations one would expect to see in a person who
                                                         services, and that the care provided to             410.20. The services of the hospice medical
has a terminal illness as defined by Medicare. See       that individual is in accordance with               director(s) or the physician member of the Hospice
OIG report A–05–96–00023—‘‘Enhanced Controls             the plan.60 The plan must be established            Interdisciplinary Group must be performed by a
Needed to Assure Validity of Medicare Hospice            by the patient’s attending physician, the           doctor of medicine or osteopathy. See 42 CFR
Enrollments.’’ Findings such as these have                                                                   418.202. The hospice should employ reasonable
                                                         hospice physician, and the                          measures to verify that physicians who certify
prompted a concern that some hospices may
intentionally misrepresent a condition as terminal       Interdisciplinary Group.61 Each patient’s           hospice services are appropriately licensed and no
in order to secure Medicare reimbursement. See           needs should be continuously assessed               adverse actions, such as criminal conviction,
also note 24.                                            and all treatment options explored and              debarment, or an exclusion, have been taken against
  56 See 42 CFR 418.22(d). If a question is raised as                                                        them.
                                                         evaluated in the context of the patient’s              64 42 CFR 418.58(c).
to whether a patient is terminally ill, the hospice
will be requested to furnish its Medicare fiscal
                                                         symptoms.62 The hospice’s written                      65 See 42 U.S.C. 1395f(a)(7)(B); 42 U.S.C.

intermediary with the information necessary to                                                               1395x(dd)(2)(B).
                                                           59 See   42 CFR 418.62.
establish that the patient is terminally ill.                                                                   66 42 CFR 418.58(b).
  57 See 42 U.S.C. 1395f(a)(7). See also note 29.          60 See   42 U.S.C. 1395f(a)(7); 42 CFR 418.58.       66 Once a Medicare beneficiary elects hospice
  58 In order to verify a patient’s terminal illness,      61 Id.
                                                                                                             care, the hospice is responsible for furnishing
Medicare fiscal intermediaries need to review               62 Some ORT audits found that hospice            directly, or arranging for, all supplies and services
physician input and rationale beyond a signature on      physicians, at times, rely partly on referring,     that relate to the beneficiary’s terminal condition,
the certification form (e.g., a recent medical history   attending physicians. Although the referring        except the services of an attending physician.
and physical if the physician does not actually          physician’s opinion can and should be considered    Hospice beneficiaries have the right to receive
examine the patient prior to admission to hospice;       as part of the decision making process, the final   covered medical, social, and emotional support
summary of physician review of the history and           determination of hospice eligibility is the         services from the hospice directly, or through
physical taken by hospice personnel; or physician        responsibility of the hospice physician. For        arrangements made by the hospice, and should not
documentation of his or her contribution to the          instance, see OIG report A–04–95–02111. If          be forced to seek or pay for such care from non­
Interdisciplinary Group meetings).                       employees of a hospice believe that services        hospice providers.
39158                       Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

resolve problems with the utilization of             based upon the level of care provided.70                  We recommend that hospices
services, facilities, and personnel. To              Because HCFA establishes different                     formulate policies and procedures that
achieve such monitoring, a hospice                   payment amounts for specific categories                include periodic clinical reviews, both
should schedule Interdisciplinary                    of covered hospice care, a hospice must                prior and subsequent to billing for
Group case reviews and conferences,68                ensure that it provides for services to                services, as a means of verifying that
review specific problems that may arise              hospice patients that are reasonable and               patients are receiving only reasonable
with services provided, and use                      necessary. Otherwise, the hospice may                  and necessary services. As part of such
objective written criteria or treatment              be reimbursed for a higher level of                    reviews, hospices should examine the
protocols to guide decisions about the               services than was necessary, e.g., a                   level, frequency, and duration of the
utilization of hospice services provided.            hospice that provides and bills for                    services they perform to determine, in
Utilization concerns may be an                       continuous care where only routine                     consultation with a physician, whether
indication of a problem with the quality             home care is necessary.                                patients’ medical conditions justify the
or quantity of services provided to a                  As a preliminary matter, the OIG                     level of services provided and billed. A
hospice patient or demonstrate a more                recognizes that licensed health care                   hospice may choose to incorporate this
fundamental concern as to the patient’s              professionals must be able to order any                clinical review function into pre­
eligibility for the Medicare Hospice                 services that are appropriate for the care             existing quality assurance mechanisms
Benefit in the first place. Therefore, a             of their patients. However, Medicare                   or any other quality assurance processes
hospice should implement policies and                and other Government and private                       that are part of its conditions of
procedures to identify, assess, and                  health care plans will only pay for those              participation.74
rectify any problems associated with:                services otherwise covered that meet                   e. Services Provided to Hospice Patients
   • Appropriateness of                              appropriate standards (i.e., in the case of            in Nursing Homes
Interdisciplinary Group services and                 Medicare, ‘‘reasonable and necessary’’
level of services being provided;                    services). Providers may not bill for                     Hospice services may be appropriate
   • Appropriateness of patient                      services that do not meet the applicable               and beneficial to terminally ill nursing
admission to hospice;                                standards.71 The hospice is in a unique                home residents who wish to receive
                                                                                                            palliative care.75 However, the OIG has
   • Regular review of patient length of             position to deliver this information to
                                                     the health care professionals on its staff             found hospices that enroll nursing home
stay;
                                                                                                            patients in hospice care are particularly
   • Delays in admission or in the                   and to the physicians who certify
                                                     hospice services. Upon request, a                      vulnerable to fraud and abuse.76
provision of Interdisciplinary Group
                                                                                                            Appropriately, a hospice should set
services; and                                        hospice must be able to provide
                                                                                                            sufficient oversight controls in place to
   • Specific treatment modalities.                  documentation, such as physician
                                                                                                            ensure that care it provides to nursing
   When utilization problems are                     orders and other patient medical
                                                                                                            home residents is appropriate,
identified, a hospice should implement               records, to support the level of services
                                                                                                            complete, and in accordance with
corrective actions and preventative                  provided to a hospice patient.72 The
                                                                                                            applicable laws and Federal health care
measures that may include ongoing                    compliance officer should ensure that a
                                                                                                            program requirements.
monitoring, changes in the provision of              clear, comprehensive summary of the                       When a resident of a nursing home
services, and revisions of policies and              definitions for the different levels of                elects the Medicare Hospice Benefit, the
procedures.                                          hospice care 73 and applicable rules of                hospice and the nursing home should
                                                     the various Government and private                     jointly establish a coordinated plan of
d. Levels of Hospice Care                            plans is prepared, disseminated, and                   care that reflects the hospice
   A hospice’s compliance program                    explained to appropriate hospice                       philosophy, and is based on an
should provide that it should only seek              personnel.                                             assessment of the individual’s needs
reimbursement for services that the                                                                         and unique living situation in the
hospice has reason to believe are                       70 Payment amounts are determined within each
                                                                                                            nursing home. The coordinated plan
reasonable and necessary 69 for the                  of the following categories: (1) Routine home care
                                                     day; (2) continuous home care day (patient who         should identify the care and services
palliation or management of terminal                 receives hospice care that consists predominantly of   that the nursing home will provide to be
illness and were ordered by a physician              nursing care on a continuous basis at home, is         responsive to the unique needs of the
or other appropriately licensed                      furnished only during brief periods of crisis and
                                                                                                            patient/resident and his or her
individual. The OIG recommends the                   only as necessary to maintain the terminally ill
                                                     patient at home); (3) inpatient respite care day       expressed desire for hospice care.
hospice’s compliance program                         (hospice patient receives care in an approved             In general, a hospice should involve
communicate to physicians authorized                 facility on a short-term basis for respite—not more    nursing home personnel in assisting
to certify patients for hospice care and             than five consecutive days at a time); and (4)         with the administration of a patient’s
hospice personnel authorized to admit                general inpatient care day (hospice patient receives
                                                     general inpatient care in an inpatient facility for    prescribed therapies included in the
patients for hospice care that services              pain control or acute or chronic symptom               plan of care only to the extent that the
will only be paid if ordered, certified,             management that cannot be managed in other
covered, reasonable, and necessary for               settings). See 42 CFR 418.302.                           74 See 42 CFR 418.66.
                                                        71 Administrative civil monetary penalties,
the patient, given his or her clinical                                                                        75 See note 34.
                                                     assessments, and exclusion, as well as remedies
condition.                                           available under criminal and civil law, including
                                                                                                              76 In some cases reviewed in nursing homes,

   Although hospice services are                                                                            records have shown that patients did have a
                                                     the civil False Claims Act, may be imposed against     terminal condition, but were stable with little sign
reimbursed on a per diem basis and not               any person who submits a claim for services ‘‘that     of deterioration or decline. OIG medical reviewers
per individual component of the                      [the] person knows or should know are not              have found that while the hospice benefit may
                                                     medically necessary.’’ See, e.g., 42 U.S.C. 1320a–     eventually have been appropriate, at the time of
services performed, the payment is                   7a(a).                                                 election, patients were stable and the election of
                                                        72 Medicare fiscal intermediaries have the
                                                                                                            hospice was premature. See OEI report OEI–05–95–
  68 Interdisciplinary Group conferences are         authority to require hospices that furnish items or    00250: ‘‘Hospice Patients in Nursing Homes;’’ see
regularly scheduled periodic meetings of the         services under the program to submit                   also OIG report A–05–96–00023—‘‘Enhanced
Interdisciplinary Group to review the most current   documentation that substantiates services were         Controls Needed to Assure Validity of Medicare
patient/family assessment, evaluate needs, and       actually provided and medically necessary. See         Hospice Enrollments.’’ For other examples of
update the plan of care.                             Medicare Intermediary Manual § 3116.1.B.               potential fraud and abuse in the hospice/nursing
  69 See note 35.                                       73 See note 70.                                     home context, see notes 31–34.
                             Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                     39159

hospice would routinely utilize the                       • All of the hospices’s contracts and               home would have received directly from
services of a hospice patient’s family/                arrangements with actual or potential                  Medicaid had the patient not been
caregiver in implementing the plan of                  referral sources are reviewed by counsel               enrolled in hospice; 91
care.77 To satisfy the applicable                      and comply with all applicable statutes                   • Hospice referring its patients to a
Medicare conditions of participation in                and regulations; 87                                    nursing home to induce the nursing
the nursing home context, hospices                        • The hospice does not submit or                    home to refer its patients to the hospice;
should implement policies and                          cause to be submitted to the Federal                      • Hospice providing free (or below
procedures to ensure that:                             health care programs claims for patients               fair market value) care to nursing home
  • The hospice makes all covered                      who were referred to the hospice                       patients, for whom the nursing home is
services available to meet the needs of                pursuant to contracts or financial                     receiving Medicare payment under the
a patient and does not routinely                       arrangements that were designed to                     Medicare Skilled Nursing Facility
discharge patients in need of costly                   induce such referrals in violation of the              Benefit, with the expectation that after
inpatient care; 78                                     anti-kickback statute or similar Federal               the patient exhausts the skilled nursing
  • The hospice retains professional                   or State statute or regulation; and                    facility benefit, the patient will receive
responsibility for services (e.g., personal               • The hospice does not offer or                     hospice services from that hospice; and
care, nursing, medication for relieving                provide gifts, free services, or other                    • Hospice providing staff at its
pain control) furnished by nursing home                incentives to patients, relatives of                   expense to the nursing home to perform
staff; 79                                              patients, physicians, nursing facilities,              duties that otherwise would be
  • All the care furnished by a nursing                hospitals, contractors, or other potential             performed by the nursing home.
home is in accordance with the plan of                 referral sources for the purpose of                       Further, the policies and procedures
care; 80                                               inducing referrals in violation of the                 should specifically reference and take
  • The hospice and the nursing home                   anti-kickback statute or similar Federal               into account the OIG’s safe harbor
must communicate with each other                       or State statute or regulation.88                      regulations, which clarify those
when any changes are indicated to the                     In particular, arrangements between                 payment practices that would be
plan of care, and each provider must be                nursing homes and hospices are                         immune from prosecution under the
aware of the other’s responsibilities in               vulnerable to fraud and abuse because                  anti-kickback statute, as well as the
implementing the plan of care and                      nursing home operators have control                    OIG’s civil monetary penalty and
complete those respective functions; 81                over the specific hospice or hospices                  exclusion authorities.92
  • Evidence of the coordinated plan of                they will permit to provide hospice
care must be present in the clinical                                                                          5. Retention of Records
                                                       services to their residents.89 Moreover,
records of both providers; 82                          hospice patients residing in nursing                      Hospice compliance programs should
  • Substantially all the core services                homes may be particularly desirable                    provide for the implementation of a
are routinely provided directly by                     from a hospice’s financial standpoint.90               records system. This system should
hospice employees 83 and the hospice                   Therefore, with respect to arrangements                establish policies and procedures
does not rely on employees of the                      with nursing homes, a hospice should                   regarding the creation, distribution,
inpatient facility to furnish needed                   develop policies and procedures to                     retention, storage, retrieval, and
nursing, physician, counseling, or                     prevent the following practices from                   destruction of documents.93 The two
medical social services; 84 and                        occurring, which may constitute                        categories of documents developed
  • The hospice keeps its forms and                    potential kickbacks:                                   under this system should include: (1)
documentation of services separate from                   • Hospice offering free or below fair               All records and documentation (e.g.,
the nursing home’s forms and                           market value goods to induce a nursing                 medical records, and billing and claims
documentation.85                                       home to refer patients to the hospice;                 documentation) required either by
4. Anti-Kickback and Self-Referral                        • Hospice paying ‘‘room and board’’                 Federal or State law for participation in
Concerns                                               payments to the nursing home in                        Federal health care programs 94 or any
                                                       amounts in excess of what the nursing                  other applicable Federal and State laws
   The hospice should have policies and
                                                                                                              and regulations (e.g., document
procedures in place with respect to                      87 Although hospices may contract with               retention requirements to maintain State
compliance with Federal and State anti­                physicians, see note 41, hospices and physicians       licensure); and (2) all records necessary
kickback statutes.86 Such policies                     must still tailor such agreements to avoid violation
                                                       of the anti-kickback statute or similar Federal or     to protect the integrity of the hospice’s
should provide that:
                                                       State statute or regulation and to comply with         compliance process and confirm the
  77 Hospice   Certification Manual § 2082.B.
                                                       applicable Medicare conditions of participation.       effectiveness of the program. The
                                                       See 42 CFR 418.56 and 418.86.                          second category includes: (a)
  78 See   42 CFR 418.50.                                88 See 42 U.S.C. 1320a–7b(b); 60 FR 40847 (1995).
   79 See 42 CFR 418.56.
                                                         89 While an exclusive or semi-exclusive
                                                                                                              Documentation that employees were
   80 See 42 CFR 418.58.
                                                       arrangement with a nursing home to provide             adequately trained; (b) reports from the
   81 Hospice Certification Manual § 2082.A.
                                                       hospice services to residents can promote efficiency   hospice’s hotline, including the nature
   82 Hospice Certification Manual § 2082.A.
                                                       and safety by permitting the nursing home operator     and results of any investigation that was
   83 See 42 CFR 418.80.                               to coordinate care, screen hospice caregivers, and     conducted; (c) documentation of
   84 In limited circumstances, HCFA may approve       maintain control of the premises, such an
a waiver of the requirement for core nursing           arrangement may have substantial monetary value
                                                                                                                91 See note 31.
services to be provided by a hospice that is located   to a hospice. In these circumstances, some nursing
                                                                                                                92 See 42 CFR 1001.952.
in a non-urbanized area. See 42 CFR 418.83.            home operators and/or hospices may request or
   85 A hospice may consider creating some type of     offer illegal remuneration to influence a nursing        93 This records system should be tailored to fit the

payroll tracking or time study in an effort to         home’s decision to do business with a particular       individual needs and financial resources of the
properly differentiate services between the hospice    hospice.                                               hospice.
and the nursing home.                                    90 First, a nursing home’s population represents a     94 For example, Medicare requires that hospices
   86 The hospice’s in-house counsel or compliance     sizable pool of potential hospice patients. Second,    must establish and maintain a clinical record for
officer should, among other things, obtain copies of   nursing home hospice patients may generate higher      every individual receiving care and services. The
all relevant OIG regulations, Special Fraud Alerts,    gross revenues per patient than patients residing in   record must be complete, promptly and accurately
and advisory opinions (these documents are located     their own homes, because nursing home residents        documented, readily accessible and systematically
on the Internet at http://www.os.dhhs.gov/oig), and    receiving hospice care have, on average, longer        organized to facilitate retrieval. Any entries are to
ensure that the hospice’s policies reflect the         lengths of stay than hospice patients residing in      be made and signed by the person providing the
guidance provided by the OIG.                          their own homes.                                       services. See 42 CFR 418.74.
39160                         Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

corrective action, including disciplinary               B. Designation of a Compliance Officer                    educational and training program that
action taken and policy improvements                    and a Compliance Committee                                focuses on the elements of the
introduced, in response to any internal                                                                           compliance program, and seeks to
                                                        1. Compliance Officer
investigation or audit; (d) modifications                                                                         ensure that all relevant employees and
to the compliance program; (e) self­                       Every hospice should designate a                       management are knowledgeable of, and
disclosures; and (f) the results of the                 compliance officer to serve as the focal                  comply with, pertinent Federal and
hospice’s auditing and monitoring                       point for compliance activities. This                     State standards;
efforts.95                                              responsibility may be the individual’s
                                                        sole duty or added to other management                       • Ensuring that independent
6. Compliance as an Element of a                        responsibilities, depending upon the                      contractors and agents who furnish
Performance Plan                                        size and resources of the hospice and                     physician, nursing, or other health care
                                                        the complexity of the task. Designating                   services to the clients of the hospice, or
  Compliance programs should require                                                                              billing services to the hospice, are aware
                                                        a compliance officer with the
that the promotion of, and adherence to,                                                                          of the requirements of the hospice’s
                                                        appropriate authority is critical to the
the elements of the compliance program                                                                            compliance program with respect to
                                                        success of the program, necessitating the
be a factor in evaluating the                                                                                     eligibility, billing, and marketing,
                                                        appointment of a high-level official in
performance of all employees, who                                                                                 among other things;
                                                        the hospice with direct access to the
should be periodically trained in new
compliance policies and procedures. In
                                                        hospice’s president or CEO, governing                        • Coordinating personnel issues with
                                                        body, all other senior management, and                    the hospice’s Human Resources/
addition, all managers and supervisors                  legal counsel.96 The officer should have
should:                                                                                                           Personnel office (or its equivalent) to
                                                        sufficient funding and staff to perform                   ensure that (i) the National Practitioner
  • Discuss with all supervised                         his or her responsibilities fully.                        Data Bank 98 has been checked with
employees and relevant contractors the                  Coordination and communication are                        respect to all medical staff and
compliance policies and legal                           the key functions of the compliance                       independent contractors (as
requirements pertinent to their function;               officer with regard to planning,                          appropriate) and (ii) the List of
  • Inform all supervised personnel                     implementing, and monitoring the                          Excluded Individuals/Entities 99 has
that strict compliance with these                       compliance program.                                       been checked with respect to all
policies and requirements is a condition                   The compliance officer’s primary                       employees, medical staff, and
of employment; and                                      responsibilities should include:                          independent contractors (as
                                                           • Overseeing and monitoring the                        appropriate); 100
  • Disclose to all supervised personnel                implementation of the compliance
that the hospice will take disciplinary                 program; 97                                                  • Assisting the hospice’s financial
action up to and including termination                     • Reporting on a regular basis to the                  management in coordinating internal
for violation of these policies or                      hospice’s governing body, CEO, and                        compliance review and monitoring
requirements.                                           compliance committee (if applicable) on                   activities, including annual or periodic
  In addition to making performance of                  the progress of implementation, and                       reviews of departments;
these duties an element in evaluations,                 assisting these components in                                • Independently investigating and
a compliance program should include a                   establishing methods to improve the                       acting on matters related to compliance,
policy for sanctioning managers and                     hospice’s efficiency and quality of                       including the flexibility to design and
supervisors who fail to adequately                      services, and to reduce the hospice’s                     coordinate internal investigations (e.g.,
instruct their subordinates or fail to                  vulnerability to fraud, abuse, and waste;                 responding to reports of problems or
detect noncompliance with applicable                       • Periodically revising the program in                 suspected violations) and any resulting
policies and legal requirements, where                  light of changes in the organization’s                    corrective action (e.g., making necessary
reasonable diligence on the part of the                 needs, and in the law and policies and                    improvements to hospice policies and
manager or supervisor would have led                    procedures of Government and private                      practices, taking appropriate
to the discovery of any problems or                     payor health plans;                                       disciplinary action, etc.) with all
violations and given the hospice the                       • Reviewing employees’ certifications                  hospice departments, subcontracted
opportunity to correct them earlier.                    that they have received, read, and                        providers, and health care professionals
                                                        understood the standards of conduct;
  The OIG believes all hospices should
                                                           • Developing, coordinating, and
ensure that its employees understand                                                                                 98 The National Practitioner Data Bank is a data
                                                        participating in a multifaceted                           base that contains information about medical
the importance of compliance. If a small
                                                                                                                  malpractice payments, sanctions by boards of
hospice does not have a formal                             96 The OIG believes that it is not advisable for the   medical examiners or State licensing boards,
performance evaluation structure, it                    compliance function to be subordinate to the              adverse clinical privilege actions, and adverse
should informally convey the                            hospice’s general counsel, or comptroller or similar      professional society membership actions. Health
employee’s compliance responsibilities                  hospice financial officer. Free standing compliance       care entities can have access to this data base to
                                                        functions help to ensure independent and objective        seek information about their own medical or
and the importance of these                             legal reviews and financial analyses of the               clinical staff, as well as prospective employees or
responsibilities in a written job                       institution’s compliance efforts and activities. By       physician contractors.
description or orientation checklist. The               separating the compliance function from the key              99 The List of Excluded Individuals/Entities is an

applicable documentation should                         management positions of general counsel or chief          OIG-produced report available on the Internet at
                                                        financial officer (where the size and structure of the    http://www.os.dhhs.gov/oig. It is updated on a
include a dated signature, with an                      hospice make this a feasible option), a system of         regular basis to reflect the status of health care
indication that the employee has                        checks and balances is established to more                providers who have been excluded from
received it and will be responsible for                 effectively achieve the goals of the compliance           participation in the Medicare and Medicaid
adherence to the responsibilities                       program.                                                  programs. In addition, the General Services
                                                           97 For multi-hospice organizations or hospital­        Administration maintains a monthly listing of
expressed.                                                                                                        debarred contractors on the Internet at http://
                                                        owned hospices, the OIG encourages coordination
                                                        with each hospice owned by the corporation or             www.arnet.gov/epls.
  95 The creation and retention of such documents       hospital through the use of a headquarter’s                  100 The compliance officer may also have to

and reports may raise a variety of legal issues, such   compliance officer, communicating with parallel           ensure that the criminal backgrounds of employees
as patient privacy and confidentiality. These issues    positions in each facility, regional office, or           have been checked depending upon State
are best discussed with legal counsel.                  business line, as appropriate.                            requirements or hospice policy. See note 132.
                              Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                    39161

under the hospice’s control,101 and any                  developing an appropriate team of                    volunteers, nurses, physicians, and
other agents if appropriate; and                         people to serve as the hospice’s                     other health care professionals, and the
   • Continuing the momentum of the                      compliance committee, including the                  continual retraining of current
compliance program and the                               compliance officer, a hospice should                 personnel at all levels, are significant
accomplishment of its objectives long                    consider a variety of skills and                     elements of an effective compliance
after the initial years of                               personality traits that are expected from            program. As part of their compliance
implementation.102                                       those in such positions.104 Once a                   programs, hospices should require
   The compliance officer must have the                  hospice chooses the people that will                 personnel to attend specific training on
authority to review all documents and                    accept the responsibilities vested in                a periodic basis, including appropriate
other information that are relevant to                   members of the compliance committee,                 training in Federal and State statutes,
compliance activities, including, but not                the hospice needs to train these                     regulations, and guidelines, and the
limited to, patient medical records,                     individuals on the policies and                      policies of private payors, and training
billing records, and records concerning                  procedures of the compliance program,                in corporate ethics, which emphasizes
the marketing efforts of the facility and                as well as how to discharge their duties.            the organization’s commitment to
the hospice’s arrangements with other                       The committee’s functions should                  compliance with these legal
parties, including employees,                            include:                                             requirements and policies.105
physicians, professionals on staff,                         • Analyzing the legal requirements                   These training programs should
relevant independent contractors,                        with which it must comply, and specific              include sessions highlighting the
suppliers, agents, and supplemental                      risk areas;                                          organization’s compliance program,
staffing entities. This policy enables the                  • Assessing existing policies and                 summarizing fraud and abuse laws,
compliance officer to review contracts                   procedures that address these risk areas             Federal health care program
and obligations (seeking the advice of                   for possible incorporation into the                  requirements, claim development and
legal counsel, where appropriate) that                   compliance program;                                  submission processes, patient rights,
may contain referral and payment                            • Working with appropriate hospice                and marketing practices that reflect
provisions that could violate the anti­                  departments to develop standards of                  current legal and program standards.
kickback statute and other legal or                      conduct and policies and procedures to               The organization must take steps to
regulatory requirements.                                 promote compliance with legal and                    communicate effectively its standards
   A small hospice may not have the                      ethical requirements;                                and procedures to all affected
need or the resources to hire or appoint                    • Recommending and monitoring, in                 employees, physicians, independent
a full time compliance officer. However,                 conjunction with the relevant                        contractors, and other significant agents,
each hospice should have a person in its                 departments, the development of                      e.g., by requiring participation in
organization (this person may have                       internal systems and controls to carry               training programs and disseminating
other functional responsibilities) who                   out the organization’s standards,                    publications that explain specific
can oversee the hospice’s compliance                     policies, and procedures as part of its              requirements in a practical manner.106
with applicable statutes, rules,                         daily operations;                                    Managers of specific departments or
                                                            • Determining the appropriate
regulations, and policies. The structure                                                                      groups can assist in identifying areas
                                                         strategy/approach to promote
and comprehensiveness of the hospice’s                                                                        that require training and in carrying out
                                                         compliance with the program and
compliance program will help                                                                                  such training.107 Training instructors
                                                         detection of any potential violations,
determine the responsibilities of each                                                                        may come from outside or inside the
                                                         such as through hotlines and other fraud
individual compliance officer.                                                                                organization, but must be qualified to
                                                         reporting mechanisms;
                                                                                                              present the subject matter involved and
2. Compliance Committee                                     • Developing a system to solicit,
                                                                                                              experienced enough in the issues
  The OIG recommends that a                              evaluate, and respond to complaints and
                                                                                                              presented to adequately field questions
compliance committee be established to                   problems; and
                                                            • Monitoring internal and external                and coordinate discussions among those
advise the compliance officer and assist                                                                      being trained. New employees should be
                                                         audits and investigations for the
in the implementation of the                                                                                  trained early in their employment.108
                                                         purpose of identifying troublesome
compliance program.103 When                                                                                   Training programs and materials should
                                                         issues and deficient areas experienced
                                                         by the hospice, and implementing                     be designed to take into account the
   101 E.g., attending physicians, pharmacies, durable
                                                         corrective and preventive action.                    skills, experience, and knowledge of the
medical equipment suppliers, hospitals, nursing
homes, home health agencies, and supplemental               The committee may also address other              individual trainees. The compliance
staffing entities.                                       functions as the compliance concept                     105 Specific compliance training should
   102 Periodic on-site visits of hospice operations,
                                                         becomes part of the overall hospice                  complement any ‘‘inservice’’ training sessions that
bulletins with compliance updates and reminders,
distribution of audiotapes or videotapes on different
                                                         operating structure and daily routine.               a hospice may regularly schedule to provide an
risk areas, lectures at management and employee                                                               ongoing program for the training of employees as
                                                         C. Conducting Effective Training and                 required by its conditions of participation. 42 CFR
meetings, circulation of recent health care articles
covering fraud and abuse, and innovative changes         Education                                            418.64.
                                                                                                                 106 Some publications, such as OIG’s Special
to compliance training are various examples of             The proper education and training of
approaches and techniques the compliance officer                                                              Fraud Alerts, audit and inspection reports, and
can employ for the purpose of ensuring continued         corporate officers, managers, employees,             advisory opinions, as well as the annual OIG work
interest in the compliance program and the                                                                    plan, are readily available from the OIG and could
hospice’s commitment to its policies and                 necessary changes to hospice policies and            be the basis for standards, educational courses, and
principles.                                              procedures as recommended by the committee.          programs for appropriate hospice employees.
   103 The compliance committee benefits from               104 A health care provider should expect its         107 Significant variations in the functions and

having the perspectives of individuals with varying      compliance committee members and compliance          responsibilities of different departments or groups
responsibilities in the organization, such as            officer to demonstrate high integrity, good          may create the need for training materials that are
operations, finance, audit, human resources, and         judgment, assertiveness, and an approachable         tailored to compliance concerns associated with
clinical management (e.g., hospice physician), as        demeanor, while eliciting the respect and trust of   particular operations and duties.
well as employees and managers of key operating          employees of the hospice and having significant         108 Certain positions, such as those that involve

units. These individuals should have the requisite       professional experience working with billing,        the billing of hospice services or patient admission
seniority and comprehensive experience within            clinical records, documentation, and auditing        to hospice care, create a greater organizational legal
their respective departments to implement any            principles.                                          exposure, and therefore require specialized training.
39162                         Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

officer should document any formal                       example, for certain employees involved                   command and supervisors or other
training undertaken by the hospice as                    in the hospice admission functions,                       personnel cannot divert such reports.115
part of the compliance program.                          periodic training in applicable                             The OIG encourages the establishment
   A variety of teaching methods, such                   reimbursement coverage and eligibility                    of a procedure so that hospice personnel
as interactive training, and training in                 requirements should be required. In                       may seek clarification from the
several different languages, particularly                hospices with high employee turnover,                     compliance officer or members of the
where a hospice has a culturally diverse                 periodic training updates are critical.                   compliance committee in the event of
staff, should be implemented so that all                    The OIG recognizes that the format of                  any confusion or question with regard to
affected employees are knowledgeable                     the training program will vary                            a hospice policy, practice, or procedure.
of the institution’s standards of conduct                depending upon the resources of the                       Questions and responses should be
and procedures for alerting senior                       hospice. For example, a small hospice                     documented and dated and, if
management to problems and                               may want to create a video for each type                  appropriate, shared with other staff so
concerns.109 In addition to specific                     of training session so new employees                      that standards, policies, practices, and
training in the risk areas identified in                 can receive training in a timely                          procedures can be updated and
section II.A.2, above, primary training                  manner.113                                                improved to reflect any necessary
for appropriate corporate officers,                         The OIG recommends that attendance                     changes or clarifications. The
managers, and other hospice staff                        and participation in training programs                    compliance officer may want to solicit
should include such topics as:                           be made a condition of continued                          employee input in developing these
   • Government and private payor                        employment and that failure to comply                     communication and reporting systems.
reimbursement principles;                                with training requirements should result
                                                                                                                   2. Hotlines and Other Forms of
   • General prohibitions on paying or                   in disciplinary action, including
                                                                                                                   Communication
receiving remuneration to induce                         possible termination, when such failure
referrals;                                               is serious. Adherence to the provisions                      The OIG encourages the use of
   • Improper alterations to clinical                    of the compliance program, such as                        hotlines,116 e-mails, written memoranda,
records; 110                                             training requirements, should be a factor                 newsletters, suggestion boxes, and other
   • Providing hospice services with                     in the annual evaluation of each                          forms of information exchange to
proper authorization;                                    employee. The hospice should retain                       maintain these open lines of
   • Patient rights and patient                          adequate records of its training of                       communication.117 If the hospice
education;                                               employees, including attendance logs                      establishes a hotline, the telephone
   • Compliance with Medicare                            and material distributed at training                      number should be made readily
conditions of participation; and                         sessions.                                                 available to all employees and
   • Duty to report misconduct.                          D. Developing Effective Lines of
                                                                                                                   independent contractors, possibly by
   Clarifying and emphasizing these                                                                                circulating the number on wallet cards
                                                         Communication
areas of concern through training and                                                                              or conspicuously posting the telephone
educational programs are particularly                    1. Access to the Compliance Officer                       number in common work areas.118
relevant to a hospice’s marketing and                       An open line of communication                          Employees should be permitted to
financial personnel, in that the pressure                between the compliance officer and                        report matters on an anonymous basis.
to meet business goals may render these                  hospice employees is equally important                    Matters reported through the hotline or
employees vulnerable to engaging in                      to the successful implementation of a                     other communication sources that
prohibited practices.                                    compliance program and the reduction                      suggest substantial violations of
   The OIG suggests that all relevant                    of any potential for fraud, abuse, and                    compliance policies, Federal health care
levels of personnel be made part of                      waste. Written confidentiality and non­                   program requirements, regulations, or
various educational and training                         retaliation policies should be developed                  statutes should be documented and
programs of the hospice.111 Employees                    and distributed to all employees to                       investigated promptly to determine their
should be required to have a minimum                     encourage communication and the                           veracity. A log should be maintained by
number of educational hours per year,                    reporting of incidents of potential                       the compliance officer that records such
as appropriate, as part of their                         fraud.114 The compliance committee                        calls, including the nature of any
employment responsibilities.112 For                      should also develop independent                           investigation and its results.119 Such
                                                         reporting paths for an employee to
   109 Post-training tests can be used to assess the                                                                  115 Hospices can also consider rewarding
                                                         report fraud, waste, or abuse so that
success of training provided and employee                                                                          employees for appropriate use of established
comprehension of the hospice’s policies and
                                                         employees can feel comfortable                            reporting systems.
procedures.                                              reporting outside the normal chain of                        116 The OIG recognizes that it may not be
   110 This practice involves the hospice altering the                                                             financially feasible for a smaller hospice to
attending physician’s or other authorized                Additional training is required for specialty fields      maintain a telephone hotline dedicated to receiving
physician’s diagnosis in order to receive                such as billing and marketing.                            calls about compliance issues. These companies
reimbursement for hospice care. A hospice should           113 If videos are utilized for compliance training,     may want to explore alternative methods, e.g.,
not claim the patient has a particular medical           the OIG suggests that a hospice make an individual        outsourcing the hotline or establishing a written
condition in order to qualify for reimbursement for      available to field questions from video trainees. In      method of confidential disclosure.
which it would not otherwise qualify.                    addition, those hospices that use video training             117 In addition to methods of communication used
   111 In addition, where feasible, the OIG              should strongly consider requiring trainees to            by current employees, an effective employee exit
recommends that a hospice afford outside                 complete post training comprehension tests to             interview program could be designed to solicit
contractors the opportunity to participate in the        ensure that trainees actively paid attention to the       information from departing employees regarding
hospice’s compliance training and educational            video.                                                    potential misconduct and suspected violations of
programs, or develop their own programs that               114 The OIG believes that whistleblowers should         hospice policy and procedures.
complement the hospice’s standards of conduct,           be protected against retaliation, a concept embodied         118 Hospices should also post in a prominent,

compliance requirements, and other rules and             in the provisions of the False Claims Act. See 31         available area the HHS–OIG Hotline telephone
practices.                                               U.S.C. 3730(h). In many cases, employees sue their        number, 1–800–447–8477 (1–800–HHS–TIPS), in
   112 Currently, the OIG is monitoring a significant    employers under the False Claims Act’s qui tam            addition to any company hotline number that may
number of corporate integrity agreements that            provisions out of frustration because of the              be posted.
require many of these training elements. The OIG         company’s failure to take action when a                      119 To efficiently and accurately fulfill such an

usually requires a minimum of one to three hours         questionable, fraudulent, or abusive situation was        obligation, the hospice should create an intake form
annually for basic training in compliance areas.         brought to the attention of senior corporate officials.   for all compliance issues identified through
                             Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                      39163

information should be included in                       tool to promote and ensure compliance                  affected payor, with appropriate
reports to the governing body, the CEO,                 is the performance of regular, periodic                documentation and a sufficiently
and compliance committee.120 Further,                   compliance audits by internal or                       detailed explanation of the reason for
while the hospice should always strive                  external auditors who have expertise in                the refund.124
to maintain the confidentiality of an                   Federal and State health care statutes,                   An effective compliance program
employee’s identity, it should also                     regulations, and Federal health care                   should also incorporate periodic (at
explicitly communicate that there may                   program requirements. The audits                       least annual) reviews of whether the
be a point where the individual’s                       should focus on the hospice’s programs                 program’s compliance elements have
identity may become known or may                        or divisions, including external                       been satisfied, e.g., whether there has
have to be revealed in certain instances.               relationships with third-party                         been appropriate dissemination of the
   The OIG recognizes that assertions of                contractors, specifically those with                   program’s standards, training, ongoing
fraud and abuse by employees who may                    substantive exposure to Government                     educational programs, and disciplinary
have participated in illegal conduct or                 enforcement actions. At a minimum,                     actions, among other elements.125 This
committed other malfeasance raise                       these audits should be designed to                     process will verify actual conformance
numerous complex legal and                              address the hospice’s compliance with                  by all departments with the compliance
management issues that should be                        laws governing kickback arrangements,                  program and may identify the necessity
examined on a case-by-case basis. The                   claim development and submission,                      for improvements to be made to the
compliance officer should work closely                  reimbursement, eligibility, and                        compliance program, as well as the
with legal counsel, who can provide                     marketing. The audits and reviews                      hospice’s operations. Such reviews
guidance regarding such issues.                         should inquire into the hospice’s                      could support a determination that
   The OIG recognizes that protecting                   compliance with the Medicare                           appropriate records have been created
anonymity may be infeasible for small                   conditions of participation and the                    and maintained to document the
hospices. However, the OIG believes all                 specific rules and policies that have                  implementation of an effective
hospice employees, when seeking                         been the focus of particular attention on              program.126 However, when monitoring
answers to questions or reporting                       the part of the Medicare fiscal                        discloses that deviations were not
potential instances of fraud and abuse,                 intermediaries or carriers, and law                    detected in a timely manner due to
should know to whom to turn to for                      enforcement, as evidenced by                           program deficiencies, proper
attention and should be able to do so                   educational and other communications                   modifications must be implemented.
without fear of retribution.                            from OIG Special Fraud Alerts, OIG                     Such evaluations, when developed with
                                                        audits and evaluations, and law                        the support of management, can help
E. Auditing and Monitoring                                                                                     ensure compliance with the hospice’s
                                                        enforcement’s initiatives.122 In addition,
   An ongoing evaluation process is                     the hospice should focus on any areas                  policies and procedures.
critical to a successful compliance                     of concern that are specific to the                       As part of the review process, the
program. The OIG believes that an                       individual hospice and have been                       compliance officer or reviewers should
effective program should incorporate                    identified by any entity, whether                      consider techniques such as:
thorough monitoring of its                              Federal, State, or internal.                              • Visits and interviews of patients at
implementation and regular reporting to                    Monitoring techniques may include                   their residences;
senior hospice or corporate officers.121                sampling protocols that permit the                        • Analysis of utilization patterns;
Compliance reports created by this                                                                                • Testing clinical and hospice
                                                        compliance officer to identify and
ongoing monitoring, including reports                                                                          admission staff on their knowledge of
                                                        review variations from an established
of suspected noncompliance, should be                                                                          reimbursement coverage criteria (e.g.,
                                                        baseline.123 Significant variations from
maintained by the compliance officer                                                                           present hypothetical scenarios of
                                                        the baseline should trigger a reasonable
and shared with the hospice’s senior                                                                           situations experienced in daily practice
                                                        inquiry to determine the cause of the
management and the compliance                                                                                  and assess responses);
                                                        deviation. If the inquiry determines that                 • Assessment of existing
committee. The extent and frequency of                  the deviation occurred for legitimate,                 relationships with physicians, nursing
the audit function may vary depending                   explainable reasons, the compliance                    homes,127 hospitals, and other potential
on factors such as the size and available               officer and hospice management may                     referral sources;
resources, prior history of                             want to limit any corrective action or                    • Unannounced mock audits and
noncompliance, and the risk factors that                take no action. If it is determined that               investigations;
a particular hospice confronts.                         the deviation was caused by improper                      • Reevaluation of deficiencies cited
   Although many monitoring                             procedures, misunderstanding of rules,                 in past surveys for Medicare conditions
techniques are available, one effective                 including fraud and systemic problems,                 of participation;
                                                        the hospice should take prompt steps to                   • Examination of hospice complaint
reporting mechanisms. The form could include            correct the problem. Any overpayments
information concerning the date that the potential
                                                                                                               logs;
problem was reported, the internal investigative
                                                        discovered as a result of such deviations
methods utilized, the results of the investigation,     should be returned promptly to the                        124 In addition, when appropriate, as referenced in

the corrective action implemented, the disciplinary                                                            section G.2, below, reports of fraud or systemic
measures imposed, and any identified                      122 See also section II.A.2.                         problems should also be made to the appropriate
overpayments and monies returned.                         123 The OIG recommends that when a compliance        governmental authority.
  120 Information obtained over the hotline may                                                                   125 One way to assess the knowledge, awareness,
                                                        program is established in a hospice, the compliance
provide valuable insight into management practices      officer, with the assistance of department managers,   and perceptions of the hospice’s employees is
and operations, whether reported problems are           should take a ‘‘snapshot’’ of their operations from    through the use of a validated survey instrument
actual or perceived.                                    a compliance perspective. This assessment can be       (e.g., employees questionnaires, interviews, of focus
  121 Even when a hospice or group of hospices is       undertaken by outside consultants, law or              groups).
                                                                                                                  126 Such records should include, but not be
owned by a larger corporate entity, the regular         accounting firms, or internal staff, with
auditing and monitoring of the compliance               authoritative knowledge of health care compliance      limited to, logs of hotline calls, logs of training
activities of an individual hospice must be a key       requirements. This ‘‘snapshot,’’ often used as part    attendees, training agenda materials, and
feature in any annual review. Appropriate reports       of benchmarking analyses, becomes a baseline for       summaries of corrective action taken and
on audit findings should be periodically provided       the compliance officer and other managers to judge     improvements made to hospice policies as a result
and explained to a parent organization’s senior staff   the hospice’s progress in reducing or eliminating      of compliance activities.
and officers.                                           potential areas of vulnerability.                         127 See section II.A.3.e.
39164                       Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

   • Checking personnel records to                   necessary to correct identified                  The OIG believes that the compliance
determine whether any individuals who                compliance problems and prevent them          program should include a written policy
have been reprimanded for compliance                 from recurring. In certain cases,             statement setting forth the degrees of
issues in the past are among those                   subsequent reviews or studies would be        disciplinary actions that may be
currently engaged in improper conduct;               advisable to ensure that the                  imposed upon corporate officers,
   • Questionnaires developed to solicit             recommended corrective actions have           managers, employees, physicians, and
impressions of a broad cross-section of              been implemented successfully.                other health care professionals for
the hospice’s employees and staff;                      While conducting its monitoring and        failing to comply with the hospice’s
   • Evaluation of the timeliness of                 auditing efforts, as well as its daily        standards and policies and applicable
physician referrals and physician                    operations, a hospice should document         statutes and regulations. Intentional or
signatures for hospice certifications;               its efforts to comply with applicable         reckless noncompliance should subject
   • Reviews of clinical documentation               statutes, regulations, and Federal health     transgressors to significant sanctions.
(e.g., terminal illness certification, plan          care program requirements. For                Such sanctions could range from oral
of care, nursing notes, etc.), financial             example, where a hospice, in its efforts      warnings to suspension, termination, or
records, and other source documents                  to comply with a particular statute,          financial penalties, as appropriate. Each
that support claims for reimbursement;               regulation or program requirement,            situation must be considered on a case­
   • Validation of qualifications of                 requests advice from a Government             by-case basis to determine the
hospice physicians and other hospice                 agency (including a Medicare fiscal           appropriate sanction. The written
staff, including verification of                     intermediary or carrier) charged with         standards of conduct should elaborate
applicable state license renewals;                   administering a Federal health care           on the procedures for handling
   • Evaluation of written materials and             program, the hospice should document          disciplinary problems and those who
documentation outlining the hospice’s                and retain a record of the request and        will be responsible for taking
policies and procedures; and                         any written or oral response. This step       appropriate action. Some disciplinary
   • Trend analyses, or longitudinal                 is extremely important if the hospice         actions can be handled by department
studies, that uncover deviations,                    intends to rely on that response to guide     or agency managers, while others may
positive or negative, in specific areas              it in future decisions, actions, or claim     have to be resolved by a senior hospice
over a given period.                                 reimbursement requests or appeals. A          administrator. Disciplinary action may
   The reviewers should:                                                                           be appropriate where a responsible
                                                     log of oral inquiries between the hospice
   • Have the qualifications and                                                                   employee’s failure to detect a violation
                                                     and third parties will help the
experience necessary to adequately                                                                 is attributable to his or her negligence or
                                                     organization document its attempts at
identify potential issues with the subject                                                         reckless conduct. Personnel should be
                                                     compliance. In addition, the hospice
matter that is reviewed;                                                                           advised by the hospice that disciplinary
   • Be objective and independent of                 agency should maintain records relevant
                                                     to the issue of whether its reliance was      action will be taken on a fair and
line management to the extent                                                                      equitable basis. Managers and
reasonably possible; 128                             ‘‘reasonable’’ and whether it exercised
                                                     due diligence in developing procedures        supervisors should be made aware that
   • Have access to existing audit and                                                             they have a responsibility to discipline
health care resources, relevant                      and practices to implement the advice.
                                                        The extent of a hospice’s audit should     employees in an appropriate and
personnel, and all relevant areas of                                                               consistent manner.
operation;                                           depend on the hospice’s identified risk
                                                     areas and resources. If the hospice              It is vital to publish and disseminate
   • Present written evaluative reports                                                            the range of disciplinary standards for
on compliance activities to the CEO,                 comes under Government scrutiny in
                                                     the future, the Government will assess        improper conduct and to educate
governing body, and members of the                                                                 officers and other hospice employees
compliance committee on a regular                    whether or not the hospice developed a
                                                     comprehensive audit based upon                regarding these standards. The
basis, but no less often than annually;                                                            consequences of noncompliance should
and                                                  identified risk areas and resources. If the
                                                     Government determines the hospice             be consistently applied and enforced, in
   • Specifically identify areas where                                                             order for the disciplinary policy to have
corrective actions are needed.                       failed to develop an adequate audit
                                                     program, given its resources, the             the required deterrent effect. All levels
   Just as a hospice is required by its                                                            of employees should be potentially
conditions of participation to conduct               Government will be less likely to afford
                                                     the hospice favorable treatment under         subject to the same types of disciplinary
‘‘an ongoing, comprehensive, integrated,                                                           action for the commission of similar
self-assessment of the quality and                   the Federal Sentencing Guidelines.
                                                                                                   offenses. The commitment to
appropriateness of care provided,’’ 129              F. Enforcing Standards Through Well-          compliance applies to all personnel
the OIG believes that a hospice should               Publicized Disciplinary Guidelines            levels within a hospice. The OIG
monitor its compliance with the Federal                                                            believes that corporate officers,
health care program requirements in the              1. Discipline Policy and Actions
                                                                                                   managers, supervisors, clinical staff, and
same fashion. Furthermore, just as a                    An effective compliance program            other health care professionals should
hospice is required by its conditions of             should include guidance regarding             be held accountable for failing to
participation to use its quality assurance           disciplinary action for corporate             comply with, or for the foreseeable
findings to correct identified problems              officers, managers, employees, and other      failure of their subordinates to adhere
and revise hospice policies if necessary             health care professionals who have            to, the applicable standards, laws, and
to improve patient care, 130 the OIG                 failed to comply with the hospice’s           procedures.
believes that a hospice’s management                 standards of conduct, policies and
should take whatever steps are                       procedures, Federal health care program       2. New Employee Policy
                                                     requirements, or Federal and State laws,         For all new employees who have
  28 The OIG recognizes the hospices that ar small
                                                     or those who have otherwise engaged in        discretionary authority to make
in size and have limited resources may not be able
to use internal reviewers who are not part of line
                                                     wrongdoing, which have the potential to       decisions that may involve compliance
management or hire outside reviewers.                impair the hospice’s status as a reliable,    with the law or compliance oversight,
  129 42 CFR 418.66.                                 honest, and trustworthy health care           hospices should conduct a reasonable
  130 Id.                                            provider.                                     and prudent background investigation,
                              Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                                                       39165

including a reference check,131 as part of               programs. Detected but uncorrected                       a description of the investigative
every such employment application.                       misconduct can seriously endanger the                    process (including the objectivity of the
The application should specifically                      mission, reputation, and legal status of                 investigators and methodologies
require the applicant to disclose any                    the hospice. Consequently, upon reports                  utilized), copies of interview notes and
criminal conviction,132 as defined by 42                 or reasonable indications of suspected                   key documents, a log of the witnesses
U.S.C. 1320a–7(i), or exclusion action.                  noncompliance, it is important that the                  interviewed and the documents
Pursuant to the compliance program,                      compliance officer or other management                   reviewed, the results of the
hospice policies should prohibit the                     officials immediately investigate the                    investigation, e.g., any disciplinary
employment of individuals who have                       conduct in question to determine                         action taken, and the corrective action
been recently convicted of a criminal                    whether a material violation of                          implemented. While any action taken as
offense related to health care 133 or who                applicable law or the requirements of                    the result of an investigation will
are listed as debarred, excluded, or                     the compliance program has occurred,                     necessarily vary depending upon the
otherwise ineligible for participation in                and if so, take decisive steps to correct                hospice and the situation, hospices
Federal health care programs.134 In                      the problem. 136 As appropriate, such                    should strive for some consistency by
addition, pending the resolution of any                  steps may include an immediate referral                  utilizing sound practices and
criminal charges or proposed debarment                   to criminal and/or civil law enforcement                 disciplinary protocols. 139 Further, after
or exclusion, the OIG recommends that                    authorities, a corrective action plan, 137               a reasonable period, the compliance
an individual who is the subject of such                 a report to the Government, 138 and the                  officer should review the circumstances
actions should be removed from direct                    return of any overpayments, if                           that formed the basis for the
responsibility for or involvement in any                 applicable.                                              investigation to determine whether
Federal health care program. That                           Where potential fraud or False Claims                 similar problems have been uncovered
individual’s salary should not be paid in                Act liability is not involved, the OIG                   or modifications of the compliance
whole or part, directly or indirectly, by                recommends that normal repayment                         program are necessary to prevent and
Federal health care programs or                          channels should be used for returning                    detect other inappropriate conduct or
otherwise with Federal funds. 135 With                   overpayments to the Government as                        violations.
regard to current employees or                           they are discovered. However, even if                       If an investigation of an alleged
independent contractors, if resolution of                the overpayment detection and return                     violation is undertaken and the
the matter results in conviction,                        process is working and is being                          compliance officer believes the integrity
debarment, or exclusion, the hospice                     monitored by the hospice’s audit or                      of the investigation may be at stake
should terminate its employment or                       billing divisions, the OIG still believes                because of the presence of employees
other contract arrangement with the                      that the compliance officer needs to be                  under investigation, those subjects
individual or contractor.                                made aware of these overpayments,                        should be removed from their current
                                                         violations, or deviations that may reveal                work activity until the investigation is
G. Responding to Detected Offenses and                   trends or patterns indicative of a                       completed (unless an internal or
Developing Corrective Action Initiatives                 systemic problem.                                        Government-led undercover operation
1. Violations and Investigations                            Depending upon the nature of the                      known to the hospice is in effect). In
                                                         alleged violations, an internal                          addition, the compliance officer should
   Violations of a hospice’s compliance
                                                         investigation will probably include                      take appropriate steps to secure or
program, failures to comply with
                                                         interviews and a review of relevant                      prevent the destruction of documents or
applicable Federal or State law, and
                                                         documents. Some hospices should                          other evidence relevant to the
other types of misconduct threaten a
                                                         consider engaging outside counsel,                       investigation. If the hospice determines
hospice’s status as a reliable, honest and
                                                         auditors, or health care experts to assist               that disciplinary action is warranted, it
trustworthy provider capable of
participating in Federal health care                     in an investigation. Records of the                      should be prompt and imposed in
                                                         investigation should contain                             accordance with the hospice’s written
  131 See  note 99.
                                                         documentation of the alleged violation,                  standards of disciplinary action.
  132 States may mandate, and many hospices
voluntarily conduct, criminal background checks            136 Instances of noncompliance must be                 2. Reporting
for prospective employees of hospices.                   determined on a case-by-case basis. The existence,          If the compliance officer, compliance
Identification of a criminal background of an            or amount, of a monetary loss to a health care
                                                         program is not solely determinative of whether or
                                                                                                                  committee, or management official
applicant, who may have been recently convicted
of serious crimes that relate to the proposed            not the conduct should be investigated and reported      discovers credible evidence of
employment duties, could be grounds for denying          to governmental authorities. In fact, there may be       misconduct from any source and, after
employment. Further, criminal background                 instances where there is no readily identifiable         a reasonable inquiry, has reason to
screening may deter those individuals with               monetary loss at all, but corrective action and
criminal intent from entering the field of hospice.      reporting are still necessary to protect the integrity
                                                                                                                  believe that the misconduct may violate
   133 Because providers of hospice care have            of the applicable program and its beneficiaries, e.g.,   criminal, civil, or administrative law,
frequent, relatively unsupervised access to              where services required by a plan of care were not       then the hospice should promptly report
potentially vulnerable people and their property, a      provided.                                                the existence of misconduct to the
hospice should also strictly scrutinize whether it         137 Advice from the hospice’s in-house counsel or
                                                                                                                  appropriate Federal and State
should employ individuals who have been                  an outside law firm may be sought to determine the
convicted of crimes of neglect, violence, or financial   extent of the hospice’s liability and to plan the        authorities 140 within a reasonable
misconduct.                                              appropriate course of action.
   134 Likewise, hospice compliance programs               138 The OIG currently maintains a provider self­         139 The parameters of a claim review subject to an

should establish standards prohibiting the               disclosure protocol that encourages providers to         internal investigation will depend on the
execution of contracts with companies that have          report suspected fraud. The concept of voluntary         circumstances surrounding the issues(s) identified.
been recently convicted of a criminal offense            self-disclosure is premised on a recognition that the    By limiting the scope of an internal audit to current
related to health care or that are listed by a Federal   Government alone cannot protect the integrity of         billing, a hospice may fail to discover major
agency as debarred, excluded, or otherwise               the Medicare and other Federal health care               problems and deficiencies in operations, as well as
ineligible for participation in Federal health care      programs. Health care providers must be willing to       be subject to certain liability.
programs. See note 99.                                   police themselves, correct underlying problems,            140 Appropriate Federal and State authorities
   135 Prospective employees who have been               and work with the Government to resolve these            include the Office of Inspector General of the
officially reinstated into the Medicare and Medicaid     matters. The self-disclosure protocol can be located     Department of Health and Human Services, the
programs by the OIG may be considered for                on the OIG’s website at: http://www.os.dhhs.gov/         Criminal and Civil Divisions of the Department of
employment upon proof of such reinstatement.             oig.                                                                                                 Continued
39166                        Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

period, but not more than sixty (60)                      As previously stated, the hospice                    step. Evaluating how a compliance
days 141 after determining that there is                should take appropriate corrective                     program performs during a provider’s
credible evidence of a violation. 142                   action, including prompt identification                day-to-day operations becomes the
Prompt reporting will demonstrate the                   of any overpayment to the affected                     critical indicator. 147
hospice’s good faith and willingness to                 payor and the imposition of proper                        As previously stated, a compliance
work with governmental authorities to                   disciplinary action. If potential fraud or             program should require the
correct and remedy the problem. In                      violations of the False Claims Act are                 development and distribution of written
addition, reporting such conduct will be                involved, any repayment of the                         compliance policies, standards, and
considered a mitigating factor by the                   overpayment should be made as part of                  practices that identify specific areas of
OIG in determining administrative                       the discussion with the Government                     risk and vulnerability to a hospice. One
sanctions (e.g., penalties, assessments,                following a report of the matter to law                way to judge whether these policies,
and exclusion), if the reporting provider               enforcement authorities. Otherwise,                    standards, and practices measure up is
becomes the target of an OIG                            normal repayment channels should be                    to observe how an organization’s
investigation.143                                       used for repaying identified                           employees react to them. Do employees
   When reporting misconduct to the                     overpayments. 145 Failure to disclose                  consistently experience recurring
Government, a hospice should provide                    overpayments within a reasonable                       pitfalls because they lack guidance on
all evidence relevant to the alleged                    period of time could be interpreted as                 certain issues not adequately covered in
violation of applicable Federal or State                an intentional attempt to conceal the                  company policies? Are employees
law(s) and potential cost impact. The                   overpayment from the Government,                       flagrantly disobeying an organization’s
compliance officer, under advice of                     thereby establishing an independent                    standards of conduct because they
counsel, and with guidance from the                     basis for a criminal violation with                    observe no sincere buy-in from senior
governmental authorities, could be                      respect to the hospice, as well as any                 management? Do employees have
requested to continue to investigate the                individuals who may have been                          trouble understanding policies and
reported violation. Once the                            involved. 146 For this reason, hospice                 procedures because they are written in
investigation is completed, the                         compliance programs should emphasize                   legalese or at difficult reading levels?
compliance officer should be required to                that overpayments obtained from                        Does an organization routinely
notify the appropriate governmental                     Medicare or other Federal health care                  experience systematic billing failures
authority of the outcome of the                         programs should be promptly disclosed                  because employees are ill-instructed
investigation, including a description of               and returned to the payor that made the                how to implement written policies and
the impact of the alleged violation on                  erroneous payment.                                     practices? Written compliance policies,
the operation of the applicable health                    The OIG believes all hospices,                       standards, and practices are only as
care programs or their beneficiaries. If                regardless of size, should ensure they                 good as an organization’s commitment
the investigation ultimately reveals that               are reporting the results of any                       to apply them in practice.
criminal, civil, or administrative                      overpayments or violations to the                         Every hospice should designate a
violations have occurred, the                           appropriate entity and taking the                      compliance officer or contact to serve as
appropriate Federal and State                           appropriate corrective action to remedy                the focal point of compliance activities,
authorities 144 should be notified                      the identified deficiency.                             and, if appropriate, a compliance
immediately.                                            III. Assessing the Effectiveness of a                  committee to advise and assist the
                                                        Compliance Program                                     compliance officer. An organization
Justice, the U.S. Attorney in relevant districts, and                                                          needs to seriously consider whoever
the other investigative arms for the agencies              Because the Government views the                    fills such integral roles and periodically
administering the affected Federal or State health      existence of a compliance program as a                 monitor how the individuals chosen
care programs, such as the State Medicaid Fraud         mitigating factor when determining
Control Unit, the Defense Criminal Investigative                                                               satisfy their responsibilities. Does a
                                                        culpability regarding allegations of                   compliance officer have sufficient
Service, the Department of Veterans Affairs, and the
Office of Personnel Management (which                   fraud and abuse only if the compliance                 professional experience working with
administers the Federal Employee Health Benefits        program is ‘‘effective,’’ how a hospice                billing, clinical records, documentation,
Program).                                               may assess its compliance program                      and auditing principles to perform
  141 In contrast, to qualify for the ‘‘not less than
                                                        becomes quite significant. A hospice, as               assigned responsibilities fully? Has a
double damages’’ provision of the False Claims Act,
the report must be provided to the Government
                                                        well as any other type of health care                  compliance officer or compliance
within thirty (30) days after the date when the         provider, should consider the attributes               committee been negligent in ensuring an
hospice first obtained the information. 31 U.S.C.       of each individual element of its                      organization’s compliance due to
3729(a).                                                compliance program to assess the
  142 The OIG believes that some violations may be                                                             inadequate funding, staff, and authority
                                                        program’s ‘‘effectiveness’’ as a whole.                necessary to carry out their jobs? Did
so serious that they warrant immediate notification
to governmental authorities, prior to, or
                                                        Examining the comprehensiveness of                     adding the compliance officer function
simultaneous with, commencing an internal               policies and procedures implemented to                 to a key management position with
investigation, e.g., if the conduct: (1) is a clear     satisfy these elements is merely the first             other significant duties compromise the
violation of criminal law; (2) has a significant
adverse effect on the quality of care provided to          145 A hospice should consult with its Medicare
                                                                                                               goals of the compliance program (e.g.,
program beneficiaries (in addition to any other legal   fiscal intermediary or HCFA for any further            chief financial officer who discounts
obligations regarding quality of care); or (3)          guidance regarding normal repayment channels.          certain overpayments identified to
indicates evidence of a systemic failure to comply      The hospice’s Medicare fiscal intermediary or
with applicable laws or an existing corporate                                                                  improve the company’s bottom line
                                                        HCFA may require certain information (e.g., alleged
integrity agreement, regardless of the financial        violation or issue causing overpayment, description
                                                                                                               profits)? Since a compliance officer and
impact on Federal health care programs.                 of the internal investigative process with
  143 The OIG has published criteria setting forth                                                               147 Evaluation may be accomplished through
                                                        methodologies used to determine any
those factors that the OIG takes into consideration     overpayments, disciplinary actions taken, and          techniques such as employee surveys, management
in determining whether it is appropriate to exclude     corrective actions taken, etc.) to be submitted with   assessments, and periodic review of benchmarks
a health care provider from program participation       return of any overpayments, and that such              established for audits, investigations, disciplinary
pursuant to 42 U.S.C. 1320a–7(b)(7) for violations      repayment information be submitted to a specific       action, overpayments, and employee feedback. All
of various fraud and abuse laws. See 62 FR 67392        department or individual. Interest will be assessed,   elements of an organization’s compliance program
(December 24, 1997).                                    when appropriate. See 42 CFR 405.376.                  can be evaluated, including policies, training,
  144 See note 140.                                        146 See 42 U.S.C. 1320a–7b(a)(3).                   practices, and compliance personnel.
                       Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices                               39167

a compliance committee can potentially       Federal health care program                  criminal, civil, or administrative law
have a significant impact on how             requirements, or Federal or State laws.      promptly reported to the appropriate
effectively a compliance program is          The number and caliber of disciplinary       Federal and State authorities? If any
implemented, those functions should          actions taken by an organization can be      step in this process of responding to
not be taken for granted.                    insightful. Have appropriate sanctions       detected offenses is circumvented or
   As evidenced throughout this              been applied to compliance                   improperly handled, such conduct
guidance, the proper education and           misconduct? Are sanctions applied to         would most likely demonstrate an
training of corporate officers, managers,    all employees consistently, regardless of    ineffective compliance program, as well
health care professionals, and other         an employee’s level in the corporate         as potentially result in criminal, civil, or
applicable employees of a provider, and      hierarchy? Have double-standards in          administrative liability.
the continual retraining of current          discipline bred cynicism among                  Documentation is the key to
personnel at all levels, are significant     employees? When disciplinary action is       demonstrating the effectiveness of a
elements of an effective compliance          not taken seriously or applied               provider’s compliance program. For
program. Accordingly, such efforts           haphazardly, such practices reflect          example, documentation of the
should be routinely evaluated. Are           poorly on senior management’s                following should be maintained: audit
employees trained frequently enough?         commitment to foster compliance as           results; logs of hotline calls and their
Do employees fail post-training tests        well as the effectiveness of an              resolution; corrective actions plans; due
that evaluate knowledge of compliance?       organization’s compliance program in         diligence efforts regarding business
Do training sessions and materials           general.                                     transactions; records of employee
adequately summarize important                  Another critical component of a           training, including the number of
aspects of the organization’s compliance     successful compliance program is an          training hours; disciplinary action; and
program, such as fraud and abuse laws,       ongoing monitoring and auditing              modification and distribution of policies
Federal health care program                  process. The extent and frequency of the     and procedures. Given that the OIG is
requirements, and claim development          audit function may vary depending on         encouraging self-disclosure of
and submission processes? Are training       factors such as the size and available       overpayments and billing irregularities,
instructors qualified to present the         resources, prior history of                  maintaining a record of disclosures and
subject matter and experienced enough        noncompliance, and risk factors of a         refunds to the health care programs is
to duly field questions? When thorough       particular hospice. The hallmark of          strongly endorsed. A documented
compliance training is periodically          effective monitoring and auditing efforts    practice of refunding of overpayments
conducted, employees receive the             is how an organization determines the        and self-disclosing incidents of non­
reinforcement they need to ensure an         parameters of its reviews. Do audits         compliance with Federal health care
effective compliance program.                focus on all pertinent departments of an     program requirements can serve as
   An open line of communication             organization? Does an audit cover            evidence of a meaningful compliance
between the compliance officer and a         compliance with all applicable laws and      effort by a hospice.
provider’s employees is equally              Federal health care program                     Hospices, as well as all health care
important to the success of a                requirements? Are results of past audits,    providers, should acknowledge that it is
compliance program. In today’s               pre-established baselines, or prior          their responsibility to formulate
intensive regulatory environment, the        deficiencies reevaluated? Are the            policies, procedures, and practices that
OIG believes that a provider cannot          elements of the compliance program           are tailored to their own operations, and
possibly have an effective compliance        monitored? Are auditing techniques           that are comprehensive enough to
program if it receives minimal or no         valid and conducted by objective             ensure compliance with all applicable
feedback from its employees regarding        reviewers? The extent and sincerity of       Federal health care program
compliance matters. For instance, if a       an organization’s efforts to confirm its     requirements. An organization is in the
compliance officer does not receive          compliance often proves to be a              best position to validate the suitability
appropriate inquiries from employees:        revealing determinant of a compliance        of its compliance efforts based upon its
Do policies and procedures fail to           program’s effectiveness.                     own particular circumstances.
adequately guide employees to whom              As was expressed in the last section
and when they should be                      of this guidance, it is essential that the   IV. Conclusion
communicating compliance matters? Do         compliance officer or other management          Through this document, the OIG has
employees fear retaliation if they report    officials immediately investigate reports    attempted to provide a foundation to the
misconduct? Are employees reporting          or reasonable indications of suspected       process necessary to develop an
issues not related to compliance through     noncompliance. If a material violation       effective and cost-efficient hospice
the wrong channels? Do employees have        of applicable law or compliance              compliance program. As previously
bad-faith, ulterior motives for reporting?   program requirements has occurred, a         stated, however, each program must be
Regardless of the means that a provider      provider must take decisive steps to         tailored to fit the needs and resources of
employs, whether it be telephone             correct the problem. Providers who do        an individual hospice, depending upon
hotline, email, or suggestion boxes,         not thoroughly investigate misconduct        its particular corporate structure,
employees should seek clarification          leave themselves open to undiscovered        mission, and employee composition.
from compliance staff in the event of        fraud, waste, and abuse. When a              The statutes, regulations, and guidelines
any confusion or question dealing with       provider learns of certain issues, does it   of the Federal and State health
compliance policies, practices, or           knowingly disregard associated legal         insurance programs, as well as the
procedures.                                  exposure? Is there a consistent and          policies and procedures of the private
   An effective compliance program           methodical approach to the correlation       health plans, should be integrated into
should include guidance regarding            between compliance issues identified         every hospice’s compliance program.
disciplinary action for corporate            and the corrective action necessary to          The OIG recognizes that the health
officers, managers, health care              remedy? Are isolated overpayment             care industry in this country, which
professionals, and other employees who       matters properly resolved through            reaches millions of beneficiaries and
have failed to adhere to an                  normal repayment channels? Is credible       expends about a trillion dollars
organization’s standards of conduct,         evidence of misconduct that may violate      annually, is constantly evolving. The
39168                     Federal Register / Vol. 64, No. 139 / Wednesday, July 21, 1999 / Notices

time is right for hospices to implement      number. Copies of available documents          Members of affected public: Public
a strong voluntary health care               submitted to the OMB may be obtained         Housing Authorities and Multi-Family
compliance program. As stated                from Mr. Eddins.                             owner/agents.
throughout this guidance, compliance is      SUPPLEMENTARY INFORMATION: This
                                                                                            Estimation of the total numbers of
a dynamic process that helps to ensure       Notice informs the public that the           hours needed to prepare the information
that hospices and other health care          Department of Housing and Urban              collection including number of
providers are better able to fulfill their   Development (HUD) has submitted to           respondents, frequency of response, and
commitment to ethical behavior, as well      OMB, for emergency processing, an            hours of response:
as meet the changes and challenges                                                          It is estimated that the survey will
                                             information collection package with
being imposed upon them by Congress                                                       take approximately 60 minutes to
                                             respect to Year 2000 (Y2K) compliancy
and private insurers. Ultimately, it is                                                   complete. Approximately 33,200 Public
                                             efforts for HUD properties operated by
OIG’s hope that a voluntarily created                                                     Housing Authorities and Multi-Family
                                             Public Housing Authorities and Multi-
compliance program will enable                                                            owner/agents will be requested to
                                             Family owner/agents. The survey
hospices to meet their goals, improve                                                     complete the survey.
                                             specifically addresses the status of
the quality of patient care, and                                                            Status of the proposed information
                                             embedded chips in HUD facilities.
substantially reduce fraud, waste, and                                                    collection: Awaiting OMB approval.
                                                Emergency processing of this request
abuse, as well as the cost of health care                                                   Authority: The Paperwork Reduction Act
                                             is necessary due to the imminent nature
to Federal, State, and private health                                                     of 1995, 44 U.S.C. Chapter 35, as amended.
                                             of Y2K issues and the potential
insurers.                                                                                   Dated: July 15, 1999.
                                             vulnerability of HUD facilities to
  Dated: July 14, 1999.                      experience Y2K-induced failures.             David S. Cristy,
June Gibbs Brown,                               This notice is soliciting comments        Director, IRM Policy and Management
Inspector General.                           from members of the public and               Division.
[FR Doc. 99–18590 Filed 7–20–99; 8:45 am]    affecting agencies concerning the            [FR Doc. 99–18512 Filed 7–20–99; 8:45 am]
BILLING CODE: 4150–04–P                      proposed collection of information to:       BILLING CODE 4210–01–M
                                             (1) Evaluate whether the proposed
                                             collection of information is necessary
                                             for the proper performance of the            DEPARTMENT OF HOUSING AND
DEPARTMENT OF HOUSING AND                                                                 URBAN DEVELOPMENT
URBAN DEVELOPMENT                            functions of the agency, including
                                             whether the information will have            [Docket No. FR–4441–N–33]
[Docket No. FR–4441–N–34]                    practical utility; (2) Evaluate the
                                             accuracy of the agency’s estimate of the     Submission for OMB Review:
Notice of Submission of Proposed                                                          Repayment Agreement
                                             burden of the proposed collection of
Information Collection to OMB:
                                             information; (3) Enhance the quality,        AGENCY:  Office of the Assistant
Emergency Comment Request; HUD’s
                                             utility, and clarity of the information to   Secretary for Administration, HUD.
Year 2000 Status Survey—A Special
                                             be collected; and (4) Minimize the
Year Data Gathering Request                                                               ACTION: Notice.
                                             burden of the collection of information
AGENCY:  Office of the Assistance            on those who are to respond; including       SUMMARY:   Information on the HUD–
Secretary for Administration, HUD.           through the use of appropriate               56146 is being collected under Public
ACTION: Notice.                              automated collection techniques or           Law 479 which empowers the Secretary
                                             other forms of information technology,       for HUD to collect or compromise all
SUMMARY: The proposed information            e.g., permitting electronic submission of    obligations assigned to or held by the
collection requirement described below       responses.                                   Secretary and all legal or equitable
has been submitted to the Office of             This Notice also lists the following      rights accruing to HUD in connection
Management and Budget (OMB) for              information:                                 with the payment of a HUD-insured
emergency review and approval, as               Title of Proposal: HUD’s Year 2000        loan until such time as such obligations
required by the Paperwork Reduction          Status Survey—A Special Year Data            may be referred to the Attorney General
Act. The Department is soliciting public     Gathering Request on Embedded                of the United States for suit or
comments on the subject proposal.            Microchips.                                  collections.
DATES: Comments Due Date: July 28,
                                                   �
                                                OMB Control Number, if applicable:        DATES: Comments Due Date: August 20,
1999.                                        2507– .                                      1999.
ADDRESSES: Interested persons are               Description of the need for the           ADDRESSES: Interested persons are
invited to submit comments regarding         information and proposed use: The            invited to submit comments regarding
this proposal. Comments must be              House Committee on Banking and               this proposal. Comments should refer to
received within seven (7) days from the      Financial Services has requested that        the proposal by name and/or OMB
date of this Notice. Comments should         HUD—Real Estate Assessment Center            approval number (2502–0483) and
refer to the proposal by name and            (REAC) provide information on the            should be sent to: Joseph F. Lackey, Jr.,
should be sent to: Joseph F. Lackey, Jr.,    status of Y2K compliancy efforts for         OMB Desk Officer, Office of
HUD Desk Officer, Office of                  HUD properties operated by Public            Management and Budget, Room 10235,
Management and Budget, New                   Housing Authorities and Multi-Family         New Executive Office Building,
Executive Office Building, Washington,       owner/agents. The Committee is               Washington, DC 20503.
DC 20503.                                    specifically interested in the status of     FOR FURTHER INFORMATION CONTACT:
FOR FURTHER INFORMATION CONTACT:             embedded chips in HUD facilities. The        Wayne Eddins, Reports Management
Wayne Eddins, Reports Management             Y2K Embedded Chip survey will enable         Officer, Department of Housing and
Officer, Department of Housing and           HUD—REAC to respond to the House             Urban Development, 451 7th Street,
Urban Development, 451 Seventh Street,       Committee’s request for information.         Southwest, Washington, DC 20410,
SW, Washington, DC 20410, telephone             Agency form numbers, if applicable:       telephone (202) 708–1305. This is not a
(202) 708–2374. This is not a toll-free      form HUD–95000 (6/23/99).                    toll-free number. Copies of the proposed
